Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

Page: 1

FILED
United States Court of Appe:
Tenth Circuit
May 24,2021
Christopher M. Wolpert
Clerk of Court

PEDRO REYES; TERESITA REYES,
Plaintiffs - Appellants,
v.
JEFF JENSEN; GARY GERRARD;
LARIMER COUNTY COMMUNITY
PLANNING DEPARTMENT,

No. 20-1247
(D.C. No. 1:18-CV-03115-STV)
(D. Colo.)

Defendants - Appellees.

ORDER AND JUDGMENT*

Before MATHESON, BRISCOE, and CARSON, Circuit Judges.

Husband and wife Pedro Reyes and Teresita Reyes, appearing pro se, appeal
the district court’s grant of summary judgment1 in favor of defendants Jeff Jensen,
Gary Gerrard, and the Larimer County Community Planning Department (“Planning

4 After examining the briefs and appellate record, this panel has determined
unanimously to honor the parties’ request for a decision on the briefs without oral
argument. See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G). The case is therefore
submitted without oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.
1 The parties consented to the jurisdiction of the magistrate judge pursuant to
28 U.S.C. § 636(c) thereby permitting the magistrate judge to adjudicate the case on
behalf of the district court, including entry of final judgment.

APPENDIX-A-

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 2

Commission”)2 on their claims under Title D of die Americans with Disabilities Act
(“ADA”) and due process under 42 U.S.C. § 1983. Exercising jurisdiction under
28 U.S.C. § 1291, we affirm for the reasons set forth in the district court’s thorough
and well-reasoned order dated June 19,2020.
L BACKGROUND
This case arose out of events at a public hearing before die Planning
Commission on August 15, 2018. Loveland Ready-Mix Concrete, Inc. (“Ready
Mix”) applied to the Larimer County Community Development Department for a
special-review permit to operate a gravel mine near Laporte, Colorado. As part of
the permitting process, Ready Mix was required to present its application to the
Planning Commission at a public hearing, after which the Commission would make a
recommendation to the Larimer Board of County Commissioners (“Board of
Commissioners”) to approve the application (with or without conditions) or deny it.
The first public hearing took place on August 15. The hearing was advertised
in advance, video recorded, and televised to the local government channel. At the
time of the hearing, Mr. Jensen was the Chair of the Planning Commission and
Mr. Gerrard was the Vice-Chair. Mr. Reyes and Ms. Reyes attended the August 15
hearing, and each signed up to speak regarding Ready Mix’s application. At the
outset, Mr. Jensen explained the procedures that would apply at the hearing,

2 Although the caption of the operative complaint refers to the “Larimer
County Community Planning Department,” R., Vol. I at 95 (capitalization
normalized), the allegations in the body of the complaint concern the Planning
Commission, see id. at 95-130.

2 APPENDIX-A.2

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 3

including that each person who signed up to speak would be allowed two minutes to
testify and if the hearing was not concluded by 10:00 p.m., it would continue the
following week on August 22.
Ready Mix made its presentation and Mr. Jensen then called on the individuals
who had signed up to speak. When Ms. Reyes’s name was called, she got up and
began speaking; but when her comments exceeded the two-minute limit, Mr. Jensen
reminded her three times that her time had expired. Mr. Jensen then called the next
speaker—Mr. Reyes—who asked twice, “Can 1 give my time to her?” referring to his
wife. R., Vol. 2 at 44 (alteration and internal quotation marks omitted). When
Mr. Gerrard explained to Mr. Jensen that Mr. Reyes was asking to give his time to his
wife, Mr. Jensen told Mr. Reyes, “No, sir. You cannot do that. You’re welcome to
come and speak if you’d like.” Id. at 45-46 (internal quotation marks omitted).
Mr. Reyes responded, “No. Thank you.” Id. at 46 (internal quotation marks omitted).
Neither Mr. Reyes nor Ms. Reyes informed the Planning Commission, either
prior to or during the hearing, that Mr. Reyes was disabled and required an
accommodation to deliver his comments. Moreover, there was nothing obvious about
Mr. Reyes’s speech or appearance that would cause either Mr. Jensen or Mr. Gerrard
to believe that he was disabled.
When the second hearing reconvened on August 22, Mr. Jensen invited any
members of the public who had not yet spoken on the application to make their
comments. Apparently, Mr. Reyes was not in attendance, or if he was, he did not
make his presence known to the Planning Commission. At no time after the August
3

APPENDIX-A-3

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 4

15 hearing, did either Mr. Reyes or Ms. Reyes contact staff to inform them that
Mr. Reyes was disabled and that they should take steps to determine how he might
provide his testimony on August 22. instead, they filed suit in the United States
District Court for the District of Colorado.
In a March 21, 2019 order, the district court dismissed several of Mr. Reyes’s
claims as legally frivolous. It also found that the complaint stated no facts to support
a claim by Ms. Reyes under either Title II or § 1983 and dismissed Ms. Reyes from
the case entirely. As a result, at the time of summaiy judgment, Mr. Reyes’s
remaining claims were against (1) the Planning Commission, and Mr. Jensen and
Mr. Gerrard, in their official capacities, under Title II, and (2) Mr. Jensen, in his
individual capacity, under § 1983. The district court granted defendants’ motion for
summary judgment. This appeal followed.
n. THE MARCH 21 ORDER
Before we address the merits, we note that Ms. Reyes has included herself as a
party to the appeal, which suggests she disagrees with the district court’s March 21
order that dismissed her from the case. But Ms. Reyes does not mention the order or
the grounds on which she was dismissed. Rather, her appeal rests on the bald
statement that Mr. Reyes’s claims belong to her because they function as a single
economic unit. See Aplt. Opening Br. at 16 (“Pedro’s loss of the right to protest a
perceived threat to his health, safety and property interest Is also Terestta’s loss,
being that, as Pedro’s spouse, Teresita shared [an] interchangeable economic interest,

4

APPENDIX-A ^

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 5

in the conjugal property, that the Defendants had denied__ Pedro ... the
opportunity to protect.”).
Ms. Reyes’s failure to support this statement with any legal authority means
she has waived an appellate challenge to the order. “Although a pro se litigant’s
pleadings are to be construed liberally and held to a less stringent standard than
formal pleadings drafted by lawyers, this court has repeatedly insisted that pro se
parties follow the same rules of procedure that govern other litigants.” Garrett v.
Selby Connor Maddux & Janer, 425 F.3d 836, 840 (10th Cir. 2005) (brackets,
citation, and internal quotation marks omitted). Those rules include Federal Rule of
Appellate Procedure 28(a)(8)(A), which requires an appellant to include in her brief
“appellant’s contentions and the reasons for them, with citations to the authorities
and parts of the record on which the appellant relies.”
Therefore, when an issue is not adequately briefed, it will be deemed waived.
See Garrett, 425 F.3d at 841 (“When a pro se litigant fails to comply with [Rule
28(a)(8)(A)], we cannot fill the void by crafting arguments and performing the
necessary legal research.” (brackets and internal quotation marks omitted)). See also
Holmes V: Colo. Coal, for the Homeless Long Term Disability Plan9 762F.3d 1195,
1199 (10th Cir. 2014) (declining to consider arguments on appeal that were
inadequately briefed); Murrell v. Shalala9 43 F.3d 1388,1389 n.2 (10th Cir. 1994)
(declining to consider “a few scattered statements” and “perfunctory” arguments that
failed to develop an issue).

5

APPENDIX-A ^

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 6

And because Mr. Reyes also fails to address the grounds on which die district
court dismissed several of his claims as legally frivolous, he has likewise waived an
appellate challenge to the March 21 order.
in. DISCUSSION
A. Standard ofReview
“We review a grant of summary judgment de novo.” J. V, v. Albuquerque Pub.
Schs., 813 F.3d 1289,1294 (10th Cir. 2016). “The court shall grant summary
judgment if the movant shows that there is no genuine dispute as to any material feet
and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
B. Title II
1. Proper Defendant
We first address whether the Planning Commission is a proper defendant. It is
not. u[T]he proper defendant under a Title II claim is the public entity or an official
acting in his official capacity.” Everson v. Leis, 556 F.3d 484, 501 n.7 (6th Cir.
2009). Under Colorado law, if the public entity is a branch of the county, die
plaintiff is required to bring an action against a county in the name of the board of
county commissioners. See Gonzales v. Martinez, 403 F.3d 1179,1182 n.7 (10th Cir.
2005) (citing Colo. Rev. Stat. § 30-11-105). As a result, die district court properly
dismissed the Planning Commission.
But we also agree with the district court that Mr. Reyes’s failure to name the
Board of Commissioners as a defendant was not fatal because he accomplished die
same objective when he named as defendants, Mr. Jensen and Mr. Gerrard, in their
6

APPENDIX- A-I*

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 7

official capacities. See, e.g., Monell v. Dep't ofSoc. Servs., 436 U.S. 658,690 n.55
(1978) (“[Ojfficial capacity suits ... represent only another way of pleading an
action against an entity of which an officer is an agent.”). We now turn to the merits.
2. Discrimination
“To state a claim under Title n [of the ADA], the plaintiff must allege that
(1) he is a qualified individual with a disability, (2) who was excluded from
participation in or denied the benefits of a public entity’s services, programs, or
activities, and (3) such exclusion, denial of benefits, or discrimination was by reason
of a disability.” Robertson v. Las Animas Cnty. Sheriffs Dep 7, 500 F.3d 1185,1193
(10th Cir. 2007) (citing 42 U.S.C. § 12132). There are two types of claims under
§ 12132: “(1) exclusion from or denial of benefits and (2) discrimination.” J V.,
813 F.3d at 1295. Undo* either theory, a plaintiff is required to prove “die foregoing
three elements, including... that any denial of benefits or discrimination was by
reason of the plaintiffs disability.” Id. (internal quotation marks omitted) (emphasis
added), hi turn, “[c]ourts have recognized three ways to establish a discrimination
claim: (1) intentional discrimination (disparate treatment); (2) disparate impact; and
(3) failure to make a reasonable accommodation.” Id.
For his Title II claim, Mr. Reyes sued for intentional discrimination when
Mr. Jensen and Mr. Geirard prevented him from speaking at the August 15 hearing,
and failure to accommodate when Mr. Jensen refused to allow him to give his
speaking time to Ms. Reyes.

7

APPENDIX-A-7

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 8

a. Disability

To meet the first prong under § 12132, a plaintiff must show that he (1) has a
physical or mental impairment that substantially limits one or more major life
activities; (2) has a record of such an impairment; or (3) is regarded as having such
an impairment. See 42 U.S.C. § 12102(1XA)-(C). According to Mr. Reyes, he was
disabled and unable to speak at the hearing because he suffers from impaired hearing,
poor vision, and has a limited understanding of the English language.
The district court found that the inability to speak English is not a disability
under the ADA. See R., Vol. II at 295 (citing § 12102). And although the court
noted the “lack of [any] evidence as to the nature and extent of [Mr. Reyes’s] hearing
impairment and poor vision,” it “assume[d] for purposes of [summary judgment] that
[Mr. Reyes] has a qualified disability.” Id. We do the same.
b. Intentional Discrimination
The district court found the following facts, which we agree entitled
Mr. Jensen and Mr. Gerrard to summary judgment for intentional discrimination.
“[T]he undisputed facts demonstrate that [Mr. Reyes] was not excluded from the
[August 15] hearing.” Id. “After [Mr. Reyes] was told that he could not give his
speaking time to [his wife], Mr. Jensen [invited Mr. Reyes to speak]... [and he]
responded, “No. Thank you.” Id. (citation omitted). “Moreover, the undisputed frets
demonstrate that Mr. Jensen and Mr. Gerrard did not act, and could not have acted,
by reason of\}Ai. Reyes’s] purported disability, because they had no knowledge of
his disability.” Id. (internal quotation marks omitted) (emphasis added). “Instead,
8

APPENDIX-A

z

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 9

Mr. Jensen and Mr. Gerrard were enforcing the Planning Commission’s rule,
applicable to all participants, that speakers could not defer their speaking time to
others.” Id. at 296.
c. Failure to Accommodate
Applicable ADA regulations require public entities to “make reasonable
modifications in policies, practices, or procedures when the modifications are
necessary to avoid discrimination on the basis of disability.” 28 C.F.R.
§ 35.130(b)(7Xi). “As a result, we require public entities to provide reasonable
accommodations to disabled persons.” J V, 813 F.3d at 1299.
“A public entity must provide a reasonable accommodation under die ADA
when it knows that the individual is disabled and requires an accommodation of some
kind to participate in or receive the benefits of its services.” Id. (internal quotation
marks omitted). “A public entity is on notice that an individual needs an
accommodation when it knows that an individual requires one, either because that
need is obvious or because the individual requests an accommodation.” Id. (brackets
and internal quotation marks omitted).
The district court found “it is undisputed that (Mr. Reyes] did not request an
accommodation, nor does [Mr. Reyes] set forth any evidence that his need for an
accommodation was obvious, or refute any of the evidence presented by [Mr. Jensen
and Mr. Gerrard] that they were unaware that [Mr. Reyes] was disabled.” R., Vol, II
at 297 (internal quotation marks omitted). As a result, summary judgment for failure
to accommodate was proper.

9 APPENDIX-A ?

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 10

C. Due Process
The district court found that Mr. Jensen was entitled to summary judgment on
the due process claim on the grounds of qualified immunity. We agree.
1. Qualified Immunity
“Undo- the qualified immunity doctrine, government officials performing
discretionary functions, generally are shielded from liability for civil damages insofar
as their conduct does not violate clearly established federal statutory or constitutional
rights of which a reasonable person would have known.” Riggins v. Goodman,
572 F.3d 1101,1107 (10th Cir. 2009) (brackets and internal quotation marks
omitted). “When a defendant asserts qualified immunity at summary judgment, the
burden shifts to the plaintiff, who must clear two hurdles in order to defeat the
defendant’s motion.” Id. First, “[t]he plaintiff must demonstrate on the facts alleged
... that the defendant violated his constitutional or statutory rights,” and second,
“that the right was clearly established at the time of the alleged unlawful activity.”
Id.
“A right is clearly established when, at the time of the alleged violation, the
contours of the right were sufficiently clear that a reasonable official would
understand that what he is doing violates that right.” Id. at 1111 (brackets and
internal quotation marks omitted). “A plaintiff can demonstrate that a constitutional
right is clearly established by references to cases from the Supreme Court, the Tenth
Circuit, or die weight of authority from other circuits.” Id.

10

APPENDIX-A-/ o

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 11

a. Constitutional Violation
“To assess whether an individual was denied procedural due process, courts
must engage in a two-step inquiry: (1) did the individual possess a protected interest
such that die due process protections were applicable; and, if so, then (2) was the
individual afforded an appropriate level of process.” Id. at 1008 (internal quotation
marks omitted). Here, Mr. Reyes asserted two protected interests that he claims he
was deprived of without appropriate due process: (1) the right to be present and to be
heard at the August 15 hearing, and (2) an interest in the Ready Mix gravel-mine
project.3
With regard to the right to be present and heard, the district court found that
Mr. Reyes “attended the [August 15] hearing, was included on a list of individuals
who wished to speak at the hearing and was given the opportunity to speak.” R., Vol.
II at 300. The court further found that Mr. Reyes lacked a protected property interest
in the Planning Commission’s hearing regarding the gravel-mine project because the
final decision-maker whether to approve Ready Mix’s application was the Board of
Commissioners.

3 Mr. Reyes raises a new due process argument for the first time on appeal—
that he was not told prior to die August 15 hearing that he could not give his speaking
time to Ms. Reyes to have her speak on his behalf. It is unclear how this new
argument would give rise to a due process claim. But in any event, Mr. Reyes
forfeited the argument by failing to raise it in the district court and has waived the
argument on appeal by failing to argue that die lower court’s failure to consider die
new theory was plain error. See Richison v. Ernest Grp., Inc., 634 F.3d 1123,
1127-31 (10th Cir. 2011).
11

APPENDIX -A ” 11

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 12

In any event, the district court found that even if Mr. Reyes “had demonstrated
a protectible liberty or property interest, the undisputed facts establish that
[Mr. Jensen] did not deprive [Mr. Reyes] of proper process.” Id. at 301. “[I]t is
undisputed that the gravel mine application was presented to the Planning
Commission at die hearings on August 15 and August 22. The hearings were open to
the public, advertised in the local newspaper ahead of time, and [Mr. Reyes] attended
the hearing.” Id. at 302 (citation omitted). Mr. Reyes “was included on the list of
speakers, and [he] was specifically invited to come forward and speak when [he]
attempted to give his time to Ms. Reyes. [Mr. Reyes] refused the opportunity to
speak.” Id. at 302-03 (citations omitted). We agree with the court’s finding that
these procedures satisfied the fundamental requirement of due process, which “‘is the
opportunity to be heard at a meaningful time and in a meaningful manner.’” Id. at
301 (quoting Pater v. City of Casper, 646 F.3d 1290,1298 (10th Cir. 2011)).
b. Clearly Established Rieht
The district court further found that “even if [Mr. Reyes] had established a due
process violation, Mr. Jensen is entitled to qualified immunity because [Mr. Reyes]
has not demonstrated a clearly established right.” Id. at 303. Specifically, the court
found that Mr. Reyes “has not identified, nor has the Court uncovered, any precedent
that would have put Mr. Jensen on notice that that informing [Mr. Reyes] that he
could not give his speaking time to Ms. Reyes, while simultaneously inviting [Mr.
Reyes] himself to speak, would have violated [Mr. Reyes’s] constitutional rights ”
Id. Moreover, Mr. Reyes has also failed to direct this court to any relevant precedent
12

APPENDIX-AI2

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 13

on appeal. His failure to demonstrate a clearly established right means that
Mr. Jensen was entitled to summary judgment on die grounds of qualified immunity.
D. New Claims
In response to defendants’ motion for summary judgment, Mr. Reyes
attempted to raise several new claims that were not raised in die operative complaint;
namely, claims arising under the Equal Protection Clause, the First Amendment, and
the Ninth Amendment. The district court refused to consider the new claims on the
grounds that a party is not permitted to raise new claims at the summary judgment
stage. See Evans v. McDonald's Corp., 936 F.2d 1087, 1091 (10th Cir. 1991)
(“[P]laintiffs [cannot] wait until the last minute to ascertain and refine the theories on
which they intend to build their case.”).
Not only did Mr. Reyes attempt to raise new claims in response to defendants’
motion for summary judgment, he also tacks on several new claims for the first time
on appeal, which include fraud on the court, violation of HKPAA, and race-based
discrimination. But Mr. Reyes forfeited all these claims by failing to raise them in
the district court, and has waived them in this court by failing to argue that the
magistrate judge’s failure to consider them was plain error. See Richison, 634 F.3d at
1127-31.

13

APPENDIX^A ^

Appellate Case: 20-1247

Document: 010110526124

Date Filed: 05/24/2021

Page: 14

IV. CONCLUSION
The judgment of the district court is affirmed. We deny Mr. Reyes’s and
Ms. Reyes’s motions to proceed on appeal without prepayment of fees—in other
words informa pauperis—because they have failed to show “the existence of a
reasoned, nonfrivolous argument on the law and facts in support of the issues raised
on appeal.” DeBardeleben v. Quinlan, 937 F.2d 502, 505 (10th Cir. 1991).
Entered for the Court
Mary Beck Briscoe
Circuit Judge

14

APPENDIX- A-W-

Appellate Case: 20-1247

Document: 010110526130

Date Filed: 05/24/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron While United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303)844-3157
Christopher M. Wotpert
Clerk of Court

Jane K. Castro
ChiefDeputy Clerk

May 24,2021

Mr. Pedro Reyes
Mrs. Teresita Reyes
2805 Farview Drive
Fort Collins, CO 80524
RE:

20-1247, Reyes v. Larimer County Planning Dept., et al
Dist/Ag docket: 1:18-CV-03115-STV

Dear Appellants:
Enclosed is a copy of the order and judgment issued today in this matter. The court has
entered judgment on die docket pursuant to Fed. R. App. P. Rule 36.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of die Court

cc:

David Ayraud
Jeannine Sue Haag

CMW/at

APPENDIX- fc-1 5"
l

'9

r

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 18-CV-03115-STV
PEDRO REYES,
Plaintiff,
v.
JEFF JENSEN,
GARY GERRARD, and
LARIMER COUNTY COMMUNITY PLANNING DEPARTMENT,
Defendants.
ORDER
Magistrate Judge Scott T. Varholak
This matter comes before the Court on Defendants’ Renewed Motion fer Summary
Judgment and Brief in Support (the "Motion”). [#87] The Motion is before the Court on
the parties’ consent to have a United States magistrate judge conduct all proceedings in
this action and to order the entry of a final judgment. [##48,49] This Court has carefully
considered the Motion and related briefing, the entire case file, and the applicable case
law, and has determined that oral argument would not materially assist in the disposition
of the Motion. For the following reasons, the Motion is GRANTED and this case is
DISMISSED.

APPENDIX
I

. -g- -

I.

BACKGROUND
This case arises out of a public hearing before the Larimer County Planning

Commission on August 15, 2018. [See generally #20] The undisputed facts are as
follows.1
Loveland Ready-Mix Concrete, Inc. applied to the Larimer County Community
Development Department fbr a special review permit to operate a gravel mine near
Laporte, Colorado. [#95-1, SOF1] The application was presented to the Larimer County
Planning Commission (the “Planning Commission”), at public hearings held on August
15, 2018 and August 22, 2018 (collectively, the “hearings”). [Id. at SOF3] At the time,
Defendant Jeff Jensen was the Chair of the Planning Commission and Defendant Gary
Gerrard was the Vice-Chair.

[Id. at SOF6]

The Planning Commission reviews

applications for uses and developments and makes a recommendation to the Larimer
Board of County Commissioners, the sole and final decisionmaker, regarding whether the
application should be approved, denied, or approved with conditions. [Id. at SOF4] AH

1

The undisputed facts are drawn from the Separate Statement of Facts filed with
Plaintiff's Response in opposition to the Motion. [#95-1 at 6-31] The Court refers to the
sequentially numbered facts set forth in the Statement of Facts as “SOF#." Defendants
have provided evidentiary support for their Separate Statement of Facts. [See generally
#91] In his Separate Statement of Facts, Plaintiff suggests that many of the facts are
disputed, but Plaintiff hardly includes any specific references to evidence in the record
establishing that any of the facts are actually in dispute, as required by Section V of this
Court’s Civil Practice Standards. [See generally #95-1 at 6-31] Instead, Plaintiff attempts
to use the Separate Statement of Facts as a means lor further argument. [See id.]
Moreover, the Court has reviewed the video recording [#94] from the hearing on August
15, 2018, which largely supports Defendants’ characterization of the facts. Accordingly,
unless otherwise indicated, the Court accepts the Separate Statement of Facts as
undisputed. The Court occasionally cites directly to the exhibits or other filings cited by
the parties to provide additional context.
2

APPENDIX-0^

hearings before the Planning Commission are advertised in advance and video recorded
and televised to the local government channel. [Id. at SOF5]
Plaintiff and his wife, Teresita Reyes, attended the hearing on August 15, 2018.
[Id. at SOF9] Plaintiff and Ms. Reyes signed in to indicate that they wished to speak, lid.
at SOF10-11] They were among approximately 60 individuals who had signed up to
speak at the hearing. [Id. at SOF12] Mr. Jensen explained the rules that would be
followed during the hearing, including that each person on the list would be allowed two
minutes to testify, in order to keep the meeting moving forward. [Id. at SOF14; see also
#94 (Video Recording at 2:34:48-2:35:22)] Mr. Jensen indicated that if the hearing was
not concluded by 10:00 p.m., it would be continued to the following week on August 22,
2018. [#95-1, SOF14] Mr. Jensen further explained that the hearing would begin with
presentations by staff and the applicant, as well as commissioner questioning, and then
he would open up the floor for public comment.2 [#94 (Video Recording at 16:04-16:38)]
Following the applicant’s presentation, Mr. Jensen began calling individuals who
had signed up to speak. [#95-1, SOF15] Ms. Reyes was the second person to speak.
[Id. at SOF16] Ms. Reyes spoke beyond her two-minute time limit and was reminded
three times by Mr. Jensen that her time had expired. [Id. at SOF17] Mr. Jensen then
called Plaintiff, who was next on the list [Id. atSOFl8] Plaintiff asked twice, “Can I give
my time to her?,” referring to Ms. Reyes. [Id. at SOF19] Mr. Gerrard clarified to Mr.
Jensen that Plaintiff was asking to defer his time to Ms. Reyes. [Id. at SOF20] Mr. Jensen

2 Defendants also state in the Separate Statement of Facts that Mr. Jensen informed
attendees that individuals would not be permitted to defer their speaking time to other
speakers, which Plaintiff disputes. [#95-1, SOF14] This instruction does not appear in
the transcript [#87-3] or the video recording [#94]. The Court finds that Mr. Jensen did
not give such an instruction, but this fact is not material to the Court's analysis.
3

APPENDIX & -3

replied to Plaintiff, “No, sir. You cannot do that. You’re welcome to come and speak if
you’d like." [Id. at SOF21] Plaintiff responded, “No. Thank you." [Id. at SOF22]
Neither Plaintiff nor Ms. Reyes informed the Planning Commission staff, either
during or prior to the hearings, that Plaintiff required an accommodation, or that Plaintiff
needed Ms. Reyes to speak for him.3 [Id. at SOF26-27] Neither Mr. Jensen nor Mr.
Gerrard were aware that Plaintiff had a disability for which an accommodation was
needed in order for him to provide his testimony. [Id. at SOF31]
After Plaintiff declined Mr. Jensen’s invitation to speak, Mr. Jensen next called Jack
West to testify. [Id. at SOF23] Mr. West approached the podium with his wife, Ladell
West. [Id. at SOF24] Ms. West stated that her husband had asked her to read his written
statement into the record. [Id.; see also #94 (Video Recording at 2:40:22-2:40:27)] Mr.
Jensen accommodated this request and Ms. West read Mr. West’s statement, and then
used her allotted two minutes to make her own statement. [#95-1, SOF25]
When the hearing was continued on August 22, 2018, Mr. Jensen invited any
members of the public who had not yet spoken, regardless of whether they had signed

3 In his Response, Plaintiff claims that after he declined to speak, Ms. Reyes attempted
to inform Mr. Jensen that Plaintiff was disabled, but instead Plaintiff was cut off abruptly.
[#95 at 19-20] In support of this assertion, Mr. Reyes cites to a declaration submitted by
John Skinner. According to Mr. Skinner, “[w]hen M[s]. Reyes attempted to explain that
her husband was disabled and was not able to express himself, she was interrupted by
the chair with an absolute denial of yielding time." [#107] Mr. Skinner’s characterization
of the events is contradicted by the video recording of the proceedings. [#94 (Video
Recording at 2:39-52-2:40:09)] “Where, as here, there is video of the events at issue, the
court should not adopt a version of the facts that 'is blatantly contradicted by the record,
so that no reasonable jury could believe it’ when ruling on a motion for summary
judgment.” Kalbaugh v. Jones, No. 18-6205,2020 WL 1510054, at *2 (10th Cir. Mar. 30,
2020) (quoting Scoff v. Harris, 550 U.S. 372,380 (2007)). Nor has Plaintiff presented any
facts that contradict the sworn affidavits submitted by Mr. Jensen and Mr. Gerrard
attesting to the fact that they did not know that Mr. Reyes had a disability that prevented
him from speaking. [#87-1 at^ 15; #87-5 at1HI 9-10]
4

APPENDIX ~£

• —-

up, to speak if they wished, [Id. at SOF33] No members of the public were allowed to
defer their time to other individuals at the hearings. [Id. at SOF32]
Plaintiff and Ms. Reyes, proceeding pro se, filed the instant action in December
2018. [#1] United States Magistrate Judge Gordon G. Gallagher conducted an initial
review of the original complaint pursuant to 28 U.S.C. § 1915 and D.C.COLO.LCivR 8.1,
directing Plaintiffs to cure certain deficiencies with procedure and form. [#5] Plaintiffs
filed an amended complaint [#14], but the Court again directed Plaintiffs to cure
deficiencies, this time directing Plaintiffs to numerous substantive deficiencies [#15].
Plaintiffs filed a second amended complaint on February 4, 2019 |#18], and the Court
issued a third order directing Plaintiffs to cure deficiencies [#19]. Plaintiffs filed the
operative Third Amended Complaint on February 12, 2019. [#20] On March 21, 2019,
Senior United States District Judge Lewis T. Babcock reviewed the Third Amended
Complaint, dismissing certain claims as frivolous and dismissing Ms. Reyes from the case
entirely. [#21] As a result of Judge Babcock’s Order, Plaintiffs remaining claims are a
Title II ADA claim, asserted against the Planning Department and against Mr. Jensen and
Mr. Gerrard in their official capacities, and a due process claim, asserted against Mr.
Jensen in his individual capacity.4 5 [Id.] Plaintiff seeks punitive and compensatory

4 Plaintiff frames his Third Amended Complaint as asserting seven separate causes of
action, including six violations of the ADA under various regulatory provisions in Claims
One through Five and Claim Seven [#20 at 3-13,18], and a due process violation in Claim
Six [id. at 14-17]. In essence, the six ADA claims amount to a Title II claim that alleges
disparate treatment on the basis of a disability and failure to make a reasonable
accommodation, as described In greater detail below. Accordingly, and for simplicity, the
Court refers to the Title II ADA claims as a single cause of action.
5 Plaintiff also makes two passing mentions of his equal protection rights in the Third
Amended Complaint. [#20at9, 34] But Plaintiff does not enumerate an equal protection
claim in the body of the Third Amended Complaint, or otherwise discuss or describe
violations of his equal protection rights. Moreover, Judge Babcock did not read Plaintiffs

5 APPENDIX ES

•

~a” -

damages, a review of the land use permitting process, and an analysis of the health
impacts of the grave! mine project. |#20 at 35]
Defendants filed the instant Motion on January 30, 2020, seeking summary
judgment on Plaintiffs remaining claims. [#87] Plaintiff has filed a Response [#95], and
two additional filings, which the Court has accepted as supplements to Plaintiffs
Response [##97, 100] (collectively, the “Responses"). Defendants have filed a reply.
[#104]
II.

STANDARD OF REVIEW
Summary judgment is appropriate only if “the movant shows that there is no

genuine dispute as to any material fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a); Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986);
Henderson v. Inter-Chem Coal Co., 41 F.3d 567,569 (10th Cir. 1994).
When the moving party does not bear the burden of persuasion at trial, the movant
may satisfy its initial burden of making a prime facie demonstration of the absence of a
genuine issue of material fact “simply by pointing out to the court a lack of evidence...
on an essential element of the nonmovanf s claim.” Adler v. Wal-Mart Stores, Inc., 144
F.3d 664, 670-71 (10th Clr.1998). If the movant carries this initial burden, the burden
then shifts to the nonmovant “to go beyond the pleadings and set forth specific facts that
would be admissible in evidence in the event of trial.” Id. at 671 (quotation omitted).
“[A] ‘judge’s function’ at summary judgment is not ‘to weigh the evidence and
determine the truth of the matter but to determine whether there is a genuine issue for

Third Amended Complaint as alleging an equal protection claim when he reviewed the
complaint before drawing the case, limited to the ADA claims and the due process claim,
to this Court. [See generally #21]
6

APPENDIX'S

trial.”’ Tolan v. Cotton, 134 S. Ct 1861,1866 (2014) (quoting Anderson v. Liberty Lobby,
Inc., All U.S. 242,249 (1986)). Whether there is a genuine dispute as to a material fact
depends upon whether the evidence presents a sufficient disagreement to require
submission to a jury. See Anderson, All U.S. at 248-49; Stone v. Autoliv ASP, Inc., 210
F.3d 1132,1136 (10th Cir. 2000); Corey v. U.S. Postol Serv., 812 F.2d 621, 623 (10th
Cir. 1987). A fact is “material” if ft pertains to an element of a claim or defense; a factual
dispute is “genuine” if the evidence is so contradictory that if the matter went to trial, a
reasonable party could return a verdict for either party. Anderson, All U.S. at 248.
“Where the record taken as a whole could not lead a rational trier of fact to find for the
non-moving party, there is no 'genuine issue for trial.’" Matsushita Elec: Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986) (citing First Nat’l Bank of Ariz. v. Cities
Serv. Co., 391 U.S. 253,289 (1968)).
“A pro se litigant’s pleadings are to be construed liberally and held to a less
stringent standard than formal pleadings drafted by lawyers.” Hall v. Bellmon, 935 F.2d
1106,1110 (10th Cir. 1991) (citing Haines v. Kemer, 404 U.S. 519,520-21 (1972)). “The
Haines rule applies to all proceedings involving a pro se litigant.” Id. at 1110 n.3. The
Court, however, cannot be a pro se litigant’s advocate. See Yang v. Archuleta, 525 F.3d
925, 927 n.1 (10th Cir. 2008).
III.

ANALYSIS
In the instant Motion, Defendants argue that they are entitled to summary judgment

on both of Plaintiffs remaining claims. [See generally #87] The Court first addresses
Plaintiff’s claims arising under the ADA, and then discusses Plaintiffs due process claim
asserted against Mr. Jensen in his individual capacity.

7 APPENDIX'S-7

•

"3” —

A. ADA Claims
To establish a claim under Title II, the plaintiff must come forward with evidence
that (1) he is a qualified individual with a disability, (2) who was excluded from participation
in or denied the benefits of a public entity’s services, programs, or activities, and (3) such
exclusion, denial of benefits, or discrimination was by reason of a disabilityRobertson
v. Las Animas Cty. Sheriffs Dept, 500 F.3d 1185,1193 (10th Cir. 2007). “Courts have
recognized three ways to establish a discrimination claim under the second prong: (1)
intentional discrimination (disparate treatment): (2) disparate impact; and (3) failure to
make a reasonable accommodation.” J.V. v. Albuquerque Pub. Sch., 813 F.3d 1289,
1295 (10th Cir. 2016). Here, Plaintiffs claims appear to allege disparate treatment and
failure to make a reasonable accommodation, based on Defendants allegedly preventing
Plaintiff from speaking at the hearing or allowing Ms. Reyes to speak on his behalf. [See
generally #20] Defendants argue that Plaintiff has named the wrong public entity as a
defendant, and that the undisputed facts demonstrate that Defendants did not
intentionally discriminate against Plaintiff and did not fail to make a reasonable
accommodation. [See #87 at 8-15] The Court addresses each argument in turn.
1. improper Defendant
“The proper defendant In a claim under Title II of the ADA is the public entity Itself
or an official acting in his or her official capacity on behalf of the public entity.” Nasious
v. Colo.-Office of Governor Ritter, No.09-cv-01051-REB-KMT,2011 WL 2601015, at *3
(D. Colo. June 29, 2011). if the public entity is a branch of the county, Colorado law
requires plaintiffs to bring an action against a county in the name of the board of county
commissioners. Colo. Rev. Stat. § 30-11-105; see also Gonzales v. Martinez, 403 F.3d

8

APPENDIX-^

•

-

1179, 1182 n.7 (10th Cir. 2005) (holding that section 30-11-105 is jurisdictional and
provides ‘the exclusive method by which jurisdiction over a county can be obtained”
(quotation omitted)); McCoy v. Deutchse Bank Natl Tr. Co., No. 15-cv-00613-RBJ-KLM,
2016 WL 1047822, at *4 (D. Colo. Feb. 23, 2016) (same), report and recommendation
adopted, 2016 WL 1028325 (D. Colo. Mar. 15, 2016).
Accordingly, Plaintiff has improperly named the Larimer County Planning
Commission,6 rather than the Larimer County Board of County Commissioners, as a
defendant here. Thus, all claims against the Planning Commission are DISMISSED for
lack of jurisdiction. See, e.g., Catahan v. Jefferson Cfy., 429 P.2d 301,302 (Colo. 1967)
(“An action attempted to be brought under any other designation [other than the board of
county commissioners] is a nullity, and no valid judgment can enter in such a case.”); see
also Gonzales, 403 F.3d at 1182 n.7 (same). Nevertheless, Plaintiffs failure to name the
proper public entity defendant does not defeat his ADA claims against Mr. Jensen and
Mr. Gerrard in their official capacities on behalf of Larimer County. See, e.g., Monell v.
Dept ofSoc. Servs., 436 U.S. 658,690 n.55 (1978) (explaining that official capacity suits
“generally represent only another way of pleading an action against an entity of which an
officer is an agent”); Handy v. Cummings, No. 11-CV-00581-WYD-KMT, 2012 WL
4442752, at *3 (D. Colo. Aug. 8, 2012) (noting that “while it is sufficient to name as a
defendant either the municipality itself or a municipal official in his or her official capacity,
naming both is redundant”), report and recommendation adopted, 2012 WL 4442751 (D.

6 The caption of the Third Amended Complaint refers to the “Larimer County Community
Planning Department,” but fte allegations in the body of the complaint refer to the Larimer
County Planning Commission. [See generally #20] For consistency, the Court refers to
the Planning Commission, but the discrepancy has no bearing on the Court’s analysis.
9

APPENDIX 6 ?

.

_9w

Colo. Sept. 26,2012). Accordingly, the Court addresses Plaintiffs claims under the ADA,
for Intentional discrimination and failure to accommodate, to the extent they are asserted
against Mr. Jensen and Mr. Gerrard in their official capacities.
2. Intentional Discrimination
Again, to establish a discrimination claim under Title II of the ADA, Plaintiff must
come forward with evidence that (1) he is a qualified individual with a disability, (2) who
was excluded from participation in or denied the benefits of a public entity’s services,
programs, or activities, and (3) such exclusion, denial of benefits, or discrimination was
by reason of a disability.” Robertson, 500 F.3d at 1193. An intentional discrimination or
disparate treatment claim asserts that a qualified individual with a disability was treated
differently because of his disability, Davidson v. Am. Online, Inc., 337 F.3d 1179,1188
(10th Cir. 2003), and “typically requires a showing that a [public entity] took a particular
action based on a purposeful intent to discriminate against persons on the basis of their
disabilities," Grider v. City & Cty. of Denver, No. 10-CV-00722-MSK-MJW, 2011 WL
721279, at *3 (D. Colo. Feb. 23,2011). See also Havens v. Colo. Dep’tofCorr., 897 F.3d
1250, 1264 (10th Cir. 2018) (“[Intentional discrimination can be inferred from a
defendant’s deliberate indifference to the strong likelihood that pursuit of its questioned
policies will likely result in a violation of federally protected rights.” (quotation omitted)).
The plaintiff carries the initial burden of “raising a genuine issue of material feet on each
element of his prima facie [ADA discrimination] case.” Davidson, 337 F.3d at 1189.
Applied here, Plaintiff has failed to satisfy this Initial burden. In the Third Amended
Complaint, Plaintiff alleges in conciusory fashion that he has a “hearing impairment, poor
vision and limited understanding and command of the English language.” [#20 at 4; see

10

APPENDIX- S-)o

also #95-1, SOF30 (Plaintiff stating that he has a “disease entity that impairs blood flow
to the brain; compounded by his Inability to effectively coordinate and articulate his
thoughts in English")] The inability to speak fluent English is not a disability under the
ADA. See, e.g., 42 U.S.C. § 12102; see also Hiramanek v. Clark, No. 5:13-cv-00228RMW, 2016 WL 4729182, at *3 n.2 (N.D. Cal. Sept. 12, 2016) (“[l]nability to understand
the English language is not considered a disability under the ADA." (citing 28 C.F.R. Pt.
35, App. B (“Physical or mental impairment does not include... cultural, economic, or
other disadvantages."))). In the Motion, Defendants also note the lack of evidence as to
the nature and extent of Plaintiffs hearing impairment and poor vision. [#87 at 11]
Nonetheless, because Defendants assume for purposes of this Motion that Plaintiff has
a qualified disability [/d.], the Court will do the same.
Nonetheless, Plaintiff has failed to demonstrate the second and third prongs of a
prima facie Title II ADA claim. Under the second prong, the undisputed facts demonstrate
that Plaintiff was not excluded from the Planning Commission hearing. After Plaintiff was
told that he could not give his speaking time to Ms. Reyes, Mr. Jensen specifically stated,
“You’re welcome to come and speak if you’d like.” [#95-1, SOF21] Plaintiff responded,
“No. Thank you.” [Id. at SOF22] Moreover, the undisputed facts demonstrate that Mr.
Jensen and Mr. Gerrard did not act, and could not have acted, “by reason of Plaintiff’s
purported disability, because they had no knowledge of his disability. [Id. at SOF31; see
also #87-1 at H14 (Mr. Jensen attesting that “[a]t no point during or prior to the hearing
was [he] aware of any disability on the part of [Plaintiff] that prevented him from
speaking”); #87-5 at U 10 (Mr. Gerrard stating that ‘[t]here was no observable disability
by [Plaintiff]” and that he “had no knowledge or belief that... [Plaintiff] w[as] disabled”);

11

APPENDIX—Sr 11

id. at H 9 (“Despite [Plaintiff] communicating twice with Jensen that he wanted [Ms.] Reyes
to be able to use his time to make her presentation, at no time did [Plaintiff] state or
indicate that he had a disability or otherwise needed an accommodation.”)] instead, Mr.
Jensen and Mr. Gerrard were enforcing the Planning Commission’s rule, applicable to all
participants, that speakers could not defer their speaking time to others.7 [#95-1, SOF19-

21,32]
Because Plaintiff has not met his burden to establish a prima facie Title II claim,
Plaintiff has failed to establish an ADA disparate treatment claim.
3. Failure to Make a Reasonable Accommodation
With respect to Plaintiff’s allegations that Defendants failed to reasonably
accommodate his disability, the Tenth Circuit has instructed that the ADA “requires more
than physical access to public entities: it requires public entities to provide meaningful
access to their programs and services.” Robertson, 550 F.3d at 1193 (emphasis in
original) (quotations omitted). To effectuate Title ll’s mandate, Department of Justice
“regulations require public entities to ‘make reasonable modifications in policies,
practices, or procedures when the modifications are necessary to avoid discrimination on
the basis of disability.'" Id. (quoting 28 C.F.R. § 35.130(b)(7)). “A public entity must

7 The Court is not persuaded by Plaintiff’s arguments that Defendants’ disparate
treatment is demonstrated by the feet that Ms. West was allowed to read her husband’s
statement on his behalf, before using her own two minutes of speaking time. [See, e.g.,
#95 at 19-20; #100 at 3] This argument has no bearing on Plaintiffs failure to make his
prima facie discrimination case. Moreover, the undisputed evidence demonstrates that
Ms. West indicated that her husband had asked her to read his written statement into the
record on his behalf [#95-1, SOF24], whereas Plaintiff asked if he could “give [his] time”
to Ms. Reyes [id. at SOF19 (emphasis added)]. [See also #94 (Video Recording at
2:39:52-2:40:08)] Plaintiff does not rebut Defendants* evidence that no members of the
public were allowed to defer their speaking time to others.

12

APPENDIX-5-

provide a reasonable accommodation under the ADA when it knows that the individual is
disabled and requires an accommodation of some kind to participate in or receive the
benefits of its services.” J. V., 813 F.3d at 1299 (quotation omitted). “[A] public entity is
on notice that an individual needs an accommodation when it knows that an individual
requires one, either because that need is obvious or because the individual requests an
accommodation.” Id. (quotation omitted); see s/so Robertson, 500 F.3d at 1197 (“When
a disabled individual’s need for an accommodation is obvious, the individual's failure to
expressly ‘request’ one is not fetal to the ADA claim.”). H[T]he critical component of the
entity’s knowledge is that it is aware not just that the individual is disabled, but that the
individual’s disability affects his ability to receive the benefits of the entity’s services.”
Robertson, 500 F.3d at 1197 n.10.
Here, it is undisputed that Plaintiff did not request an accommodation, nor does
Plaintiff set forth any evidence that his need for an accommodation was “obvious,” or
refute any of the evidence presented by Defendants that they were unaware that Plaintiff
was disabled [#95-1, SOF19-22, 26-29, 31; see also #87-1 at U 14; #87-5 at IB 9-10]
As a result, his failure to make a reasonable accommodation claim foils.
4. Conclusion
For the foregoing reasons, the claims against the Larimer County Planning
Commission are DISMISSED for lack of jurisdiction. Because Plaintiff has not established
a prima facie Title II case, and because the undisputed evidence demonstrates that Mr.
Jensen and Mr. Gerrard did not violate Plaintiff’s rights under the ADA, the Motion [#87]
is GRANTED to the extent it seeks summary judgment on Plaintiff’s ADA claims against

13

APPENDIX-^) -13

• -a

Mr. Jensen end Mr. Gerrard in their official capacities, and summary judgment is entered
in favor of Mr. Jensen and Mr. Gerrard and against Plaintiff on the ADA claims.
B. Due Process Claim
Mr. Jensen contends that he is entitled to summary judgment on Plaintiffs due
process claim because Plaintiff did not have a protective liberty or property interest, was
not denied due process, and because Mr. Jensen is entitled to qualified immunity. |#87
at 16-19]
“Qualified immunity 'protects government officials from liability for civil damages
insofar as their conduct does not violate clearly established statutory or constitutional
rights of which a reasonable person would have known.’” Weise v. Casper, 593 F.3d
1163, 1166 (10th Cir. 2010) (quoting Pearson v. Callahan, 555 U.S. 223, 231 (2009)
(internal quotation omitted)). To defeat a claim of qualified immunity, a plaintiff must
demonstrate: (1) that the facts alleged make out a violation of a constitutional right, and
(2) that the right at issue was “clearly established” at the time of the defendant’s alleged
misconduct. See Thomas v. Durastanti, 607 F.3d 655,662 (10th Cir. 2010).
The requirement that the right be clearly established presents a “demanding
standard” intended to ensure the protection of “all but the plainly incompetent or those
who knowingly violate the law." District of Columbia v. Wesby, 138 S. Ct. 577,589 (2018)
(quoting Malley v. Briggs, 475 U.S. 335, 341 (1986)).

In determining whether the

constitutional right was clearly established at the time of the misconduct, the Tenth Circuit
has explained:

14

APPENDIX- EH4

A clearly established right is one that is sufficiently clear that every
reasonable official would have understood that what he is doing violates
that right. Although plaintiffs can overcome a qualified-immunity defense
without a favorable case directly on point, existing precedent must have
placed the statutory or constitutional question beyond debate. The
dispositive question is whether the violative nature of the particular conduct
is clearly established. In the Fourth Amendment context, the result depends
very much on the facts of each case, and the precedents must squarely
govern the present case.
Aldaba v. Pickens, 844 F.3d 870,877 (10th Cir. 2016) (quotations and citations omitted).
The Supreme Court has "not yet decided what precedents—other than [its] own—qualify
as controlling authority for purposes of qualified immunity.”

Wesby, 138 S. Ct. at 591

n.8. The Tenth Circuit, however, has stated that “[ordinarily this standard requires either
that there is a Supreme Court or Tenth Circuit decision on point, or that the ‘clearly
established weight of authority from other courts [has] found the law to be as the plaintiff
maintains.’" Patel v. Hall, 849 F.3d 970, 980 (10th Cir. 2017) (quoting Klen v. City of
Loveland, 661 F.3d 498, 511 (10th Cir. 2011)). The Supreme Court has “repeatedly
stressed that courts must not define clearly established law at a high level of generality,
since doing so avoids the crucial question whether the official acted reasonably in the
particular circumstances that he or she faced.” Wesby, 138 S. Ct. at 590 (quotation
omitted).
“To state an actionable procedural due process claim, a plaintiff must demonstrate:
(1) the deprivation of a liberty or property interest; and (2) that he was not afforded an
appropriate level of process.” Jemaneh v. Univ. ofWyo., 82 F. Supp. 3d 1281,1300 (D.
Colo. 2015) (citing cases), affd, 622 F. App*x 765 (10th Cir. 2015). To succeed on a due
process claim, the plaintiff must first demonstrate “facts to establish a liberty property

15

APPENDIX-0 ~U>

interest that has been created by state law.” Rollie v. Potter; No. 16-cv-03065-RM-MJW,
2018 WL 10247400, at *3 (D. Colo. Mar. 26, 2018) (Citing Horowitz, 435 U.S. at 82).
Here, Plaintiff appears to assert two interests that he was deprived of without
proper due process-^the right to be present and to be heard at the hearing, and a property
interest in the gravel mine project. [#20 at 14-17] In general, a[t]he Constitution does not
grant to members of the public generally a right to be heard by public bodies making
decisions of policy.” Minn. State Bd. for Cmty. Colls, v. Knight, 465 U.S. 271,283 (1984).
In any event, it is undisputed that Plaintiff attended the hearing, was included on a list of
individuals who wished to speak at the hearing and was given the opportunity to speak.
[#95-1, SOF9,11,21-22]
Moreover, the Planning Commission does not even make policy decisions, but
rather makes recommendations to the sole and final decision maker, the Board of County
Commissioners, about whether a certain application should be approved, denied, or
approved with conditions. |#95-1,S0F4] “In the municipal land-use context—where the
asserted property interest is a right to particular action or inaction by city zoning
authorities—[the Court's] analysis of the litigant's entitlement focuses on the level of
discretion allowed to the zoning authority under the applicable state and local zoning
laws.” Zia Shadows, L.L.C. v. City of Las Cruces, 829 F.3d 1232,1237 (10th Cir. 2016).
“A legitimate claim of entitlement to a particular land-use decision exists only when that
decision is legally mandatory: where the land-use authority’s discretion is limited by the
procedures in question, and those procedures, if followed, require a particular outcome.”
Id. (quotations omitted). Here, Plaintiff has not presented any undisputed evidence that
the Planning Commission’s decision was legally mandatory or required a particular

16

APPENDIX-® -1&

outcome. To the contrary, the Planning Commission simply makes a recommendation
and is not involved in the final decision at all. [#95-1, SOF4]; see alsoZia Shadows, 829
F.3d at 1238 (finding plaintiff had failed to demonstrate a property interest in a special
use permit or a zoning application, where the community development department “had
authority only to provide a nonbinding recommendation on the disposition” of the zoning
application, and where the city “ha[d] significant discretion in approving, denying, or
modifying” such an application). Accordingly, the Court finds that Plaintiff has failed to
demonstrate that he had a protectibie property interest in the gravel mine project
Even assuming Plaintiff had demonstrated a protectibie liberty or property interest
the undisputed facts establish that Defendants did not deprive Plaintiff of proper process.
“Although the exact procedures required by the Constitution depend on the circumstances
of a given case, the fundamental requirement of due process is the opportunityJo be
heard at a meaningful time and in a meaningful manner.” Pater v. City of Casper, 646
F.3d 1290,1298 (10th Clf. 2011) (quotation omitted); see also Cleveland Bd. ofEduc. v.
Loudermill, 470 U.S. 532, 542 (1985) (“An essential principle of due process is that a
deprivation of. .. property be preceded by notice and opportunity for hearing appropriate
to the nature of the case.” (quotation omitted)). Courts have found that “[t]he procedures
due in zoning cases, and... in cases... involving regulation of land use through general
police powers, are not extensive.” Tri Cty. Paving, Inc. v. Ashe Cty., 281 F.3d 430,436
(4th Cir. 2002) (citing City of Eastlake v. Forest City Enters., Inc., 426 U.S. 668,677,679
(1976) (finding a local government could, consistent with the Due Process Clause, make
zoning decisions though the political process in a referendum with no hearings at all))).

17

APPENDIX-8-17

For example, in Darr v. Town of Telluride, the Tenth Circuit found that Telluride
had provided the plaintiff with constitutionally adequate notice, and an opportunity for a
hearing, on revisions to a manual impacting the plaintiffs employment. 495 F.3d 1243,
1254 (10th Cir. 2007). There, it was undisputed that Telluride sent out a notice indicating
that it planned to hold a public hearing about the revised manual before it was adopted,
the notice provided the hearing's date, location, and time, Telluride conducted the public
hearing, the plaintiff had the opportunity to attend and to ask questions and make
comments but declined to do so, and the plaintiff acknowledged his understanding of the
revised policies. Id.; see a/so Tri Cty. Paving, 281 F.3d at 437 (“If... a community can
make land-use decision through a popular referendum with no hearings of any kind and
still satisfy the mandates of due process, certainty conducting open community meetings
and giving affected parties the opportunity to speak on behalf of their project is
constitutionally sufficient.”); Brody v. City of Mason, 250 F.3d 432, 437 (6th Cir. 2001)
(finding no due process violation where public comment was allowed on a special use
permit application at a planning commission meeting, and where plaintiff spoke at that
meeting and later submitted additional information in writing, even though plaintiff was not
allowed to speak at subsequent meetings).
Similarly here, it is undisputed that the gravel mine application was presented to
the Planning Commission at the hearings on August 15 and August 22, 2018. |#95-1,
SOF1,3] The hearings were open to the public, advertised in the focal newspaper ahead
of time, and Plaintiff attended the hearing. [Id. at SOF5,9] Plaintiff was included on the
list of speakers, and Plaintiff was specifically invited to come forward and speak when
Plaintiff attempted to give his time to Ms. Reyes. [Id. at SOF11,19,21 ] Plaintiff refused

18

APPENDIX'S/*

the opportunity to speak. [Id. at SOF22] In light of this undisputed evidence, Plaintiff has
failed to demonstrate that he was not afforded adequate process.
Because Plaintiff has not established a violation of his due process rights, Mr.
Jensen is entitled to qualified immunity on this claim. See, e.g., Gross, 245 F.3d at 1156
(holding that if plaintiff “fells to satisfy either" qualified immunity prong—violation of a
constitutional right or that the right was clearly established—“the court must grant the
defendant qualified immunity”). Finally, Plaintiff has not identified, nor has the Court
uncovered, any precedent that would have put Mr. Jensen on notice that informing
Plaintiff that he could not give his speaking time to Ms. Reyes, while simultaneously
inviting Plaintiff himself to speak, would have violated Plaintiff’s constitutional rights.
Accordingly, even if Plaintiff had established a due process violation, Mr. Jensen is
entitled to qualified immunity because Plaintiff has not demonstrated a clearly established
right.
Accordingly, the Motion (#87] is GRANTED to the extent it seeks summary
judgment on Plaintiffs due process claim against Mr. Jensen, and summary judgment is
entered in fevor of Mr. Jensen and against Plaintiff on the due process claim.
C. Claims Not Raised in the Third Amended Complaint
In Plaintiffs Responses in opposition to the Motion, Plaintiff appears to attempt to
allege several new claims that do not appear in the Third Amended Complaint, including
claims arising under the Equal Protection Clause, the First Amendment, and the Ninth
Amendment. [#95 at 5, 7, 9, 14, 16-18; see also #97] “A claim not raised in the
complaint,” not to mention a claim not raised in the original complaint or the first, second,
or third amended complaints [see ##1,14,18,20], “and initially asserted in a response to

19

APPENDIX-^- I?

a summary judgment motion is not properly before the court." Marten v. Yellow Freight
Sys., Inc., 993 F. Supp. 822,829 (D. Kan. 1998) (collecting cases); see a/so See Evans
v. McDonald’s Corp., 936 F.2d 1087, 1091 (10th Cir. 1991) (affirming district court’s
decision not to address a claim raised for the first time in response to a motion for
summary judgment, and noting "the liberalized pleading rules [do not] permit plaintiffs to
wait until the last minute to ascertain and refine the theories on which they intend to build
their case"); Strich v. United States, 793 F. Supp. 2d 1238, 1242 n.5 (D. Colo. 2011)
(“[T]he Federal Rules of Civil Procedure do not permit a party to raise new claims at the
summary judgment stage as it may cause prejudice to the opposing party." (collecting
cases)). Accordingly, any purported new claims are not properly before the Court and
Plaintiff may not avoid summary judgment by attempting to amend his complaint in
opposition to the Motion.
IV.

CONCLUSION
For the foregoing reasons, Defendants’ Renewed Motion for Summary Judgment

and Brief in Support [#87] is GRANTED and this case is DISMISSED. Any claims against
the Larimer County Planning Commission are DISMISSED for lack of jurisdiction.
Summary judgment is entered in favor of Mr. Jensen and Mr. Gerrard in their official
capacities and against Plaintiff on the ADA claims, and summary judgment is entered in
favor of Mr. Jensen and against Plaintiff on the due process claim.

BY THE COURT:

DATED: June 19, 2020

s/Scott T.Varholak
United States Magistrate Judge

20

APPENDIX—B-20

WTAS: Interior Distrioutes More Than S514 Million to Communities, Supports Critical Local Services | U.S. Department of the Interior

7/2/2021

m
Press Releases

WTAS: Interior Distributes More
Than $514 Million to Communities,
Supports Critical Local Services
6/30/2020
Date: Tuesday, June 30, 2020
Contact: Interior Press@ios.doi.gov

Yesterday, U.S. Secretary of the Interior David L. Bernhardt announced that more
than 1,900 local governments around the country will receive $514.7 million in
Payments in Lieu of Taxes (PILT) funding for 2020.
“This year’s distribution of $514.7 million to more than 1,900 counties will help
small towns pay for critical needs like emergency response, public safety, public
schools, housing, social services, and infrastructure ” said Secretary Bernhardt.
PILT payments are made annually for tax-exempt Federal lands administered by
U.S. Department of the Interior (DOI) agencies including the Bureau of Land
Management (BLM), the National Park Service (NPS), the U.S. Fish and Wildlife
Service (FWS), for lands administered by the U.S. Department of Agriculture's U.S.

APPENDIX- C-1

7/2/2021

WTAS: Interior Distributes More Than S514 Million to Communities, Supports Critical Local Services | U.S. Department of trie Intenor

Forest Service (USFS); and for Federal water projects and some military
installations.
DOI collects more than $13.2 billion in revenue annually from commercial activities
on public lands, such as oil and gas leasing, livestock grazing, and timber
harvesting. A portion of these revenues are shared with States and counties. The
balance is deposited in the U.S. Treasury, which in turn pays for a broad array of
Federal activities, including PILT funding.
A full list of funding by State and county is available at the Payment in L.ieu,o.f
Taxes website.

WHAT THEY ARE SAYING
National
"Over 60 percent of counties contain untaxable federal lands within their jurisdiction.
The PILT program helps to support critical county services for residents and visitors
in and around these lands,” said Executive Director of National Association of
Counties (NACo) Matthew Chase. “County governments are responsible for
emergency response, health services, infrastructure maintenance, environmental
stewardship, public safety and more. We thank Secretary Bernhardt and our partners
in Congress for ensuring full PILT funding that strengthens our communities.”
“The Payment In Lieu of Taxes program is vital across the West for the provision of
state and county public goods and services, such as roads, emergency response, and
wildlife and natural resources protection," said Executive Director of the Western
Governors' Association Jim Ogsbury.
Alaska
“With the federal government controlling over 60 percent of Alaska’s lands, PILT
funding has always been important for our state. But now, with COVID-19 causing
widespread uncertainty and instability, PILT will be critical in helping boroughs

APPF.TVTfcTY—/»_

said US. Representative Paul Cook (CA-08).
“The federal government owns nearly half of my home state of California, and 96
percent of Alpine County in my district - all land that is off the tax rolls. Every county
in my district relies heavily on PUT funding to compensate for its lost tax revenues.
I’m gratified that we were able to win another full year of PUT funding that goes
directly to the communities of the Sierra Nevada ” said US. Representative Tom
McClintock (CA-04).
"With local governments struggling to deal with the financial impacts of the COVID19 crisis, this federal assistance is now more important than ever/'said US.
Representative Jim Costa (CA-16). “I have been a longtime supporter of the PUT
program and am pleased to see counties in the,San Joaquin Valley are benefiting."
‘TILT is a vital funding source due to the immense amount of public lands throughout
San Bernardino County. This partnership with the Department of the Interior assists
in the county’s effort to improve infrastructure, emergency services, and law
enforcement in our rural communitiessaid San Bernardino County, California
Supervisor Dawn Rowe.

Colorado
The PUT program helps rural communities across Colorado sustain critical services
for their residents” said US. Senator Michael Bennet (CO). ‘These resources are
lifelines for rural counties as they continue to face the economic effects of the
COVID-19 pandemic, and will help support law enforcement, firefighters, and search
and rescue operations. Now we must continue the fight to secure long-term full
funding for PUT, to provide certainty for our rural communities”
"The PILT program is an important resource for many counties in Colorado and across
the country with large amounts of tax-exempt federal lands,” said US. Senator Cory
Gardner (CO). 'This year Colorado will receive more than $41 million in critical
funding to support essential services like search and rescue missions, emergency

APPENDIX—C-3

nfrastructure improvements in rural areas.”
“Colorado’s Third District is fortunate to have abundant public spaces for recreation
and shared use, but given that many of these areas are non-taxable, a lack of tax
revenue places significant budgetary constraints on rural areas. PILT plays a critical
role to help these communities bridge budgetary challenges and I took forward to
these funds being used to support essential infrastructure and services that would
likely not exist without this money," said U.S. Representative Scott Tipton (C0-03).
"Counties in Colorado’s Fifth Congressional District contain vast expanses of public
lands that are non-taxable. PILT grants help to bridge the fiscal challenges created
by their inability to collect tax revenues from federal land," said U.S. Representative
Doug Lamborn (CO-05). “I am pleased to see this critical funding go back into
communities in the Pikes Peak region to support essential services such as
education, healthcare, infrastructure, and law enforcement.
“Colorado's public lands are central to our way of life and economy, and PILT is a vital
program for Colorado’s rural and mountain communities ensuring our local
governments can provide essential services," said Colorado Governor Jared Polis.
"Particularly during this challenging time, Colorado and our local governments value
the long-standing federal partnership that is the PILT program.”
“Federal Land covers 72 percent of Mesa County. The PILT payment is very important
to us to help cover the County's cost of providing services to this land,” said Mesa
County, Colorado Commissioner John Justman.

Florida
“The Payments in Lieu of Taxes (PILT) program has been vital to local governments in
Florida, such as Collier County, which receives the highest funding number in the
state. This funding helps provide emergency and social services to our community
and assists in the development and improvement of their infrastructure," said U.S.
Representative Mario Diaz-Balart (FL-25). “As a senior member of the House
Appropriations Committee, I fought for strong funding for the PILT program and am

APPENDIX -t-»\

?olis seeks to secure Larimer’s federal cash

https://www.coloradoan.com/story/news/2015/07/28/poIis-bill-s...

Coloradoan.
NEWS

Polis seeks to secure Larimer’s federal
cash
Nick Coltraln mckcoltrain@coloradoan.com
Published 5:39 p.m. MT Jul. 28.2015 i Updated 11:46 p.m. MT Jul. 28,2015

Larimer County could be guaranteed millions of dollars over the next five years under a
federal bill introduced Tuesday by U.S. Rep. Jared Polis.
Polis, a Democrat whose district includes Fort Collins, sought to make payment-in-lieu-oftaxes — the program that sends cash to counties with large swaths of federal land —
mandatory for five years, as opposed to the annual appropriations process it is subject to
now, according to a news release from Polis* office.
The bill also addresses the Secure Rural Schools Program.
“The PILT and SRS programs are essential lifelines for our rural communities in
Colorado,” Polis said in a written statement. “This bill gives county officials the certainty
they need to provide basic services for their communities, like police and fire protection,
instead of holding these services victim to the whims and constant brinksmanship of
Congress.”
Colorado counties received a total of $34*5 million in PILT payments in 2014, with
Larimer County raking in about $1.75 million, fifth most in the state, for its approximately
800,000 acres of federal land.
Mesa County pulled in the most cash, at $3*35 million for its 1.55 million acres.

APPE NDIX lof 1

fT
. 7/2/2021,7:30 PM

Larimer County to receive $1.7 million in federal funds

https://www.coloradoan.com/stcay/news/Jocal/2014/06/18/larim...

Coloradoan.
NEWS

Larimer County to receive $1.7 million in
federal funds
Kevin Duggan kevinduggan@coloradoan.com
Published 2:16 p.m. MT Jun. 18,2014

Larimer County is expected to receive $1,748,790 through this year’s federal payment in
lieu of taxes, or PILT, program administered by the U.S. Department of the Interior.
The program provides funding to local governments to offset property tax revenue that
cannot be collected on federally owned public lands. In Larimer County, which has
806,416 acres of federal land, PILT funds typically are directed to the road and bridge
fund.
Funding for the program was included in the 2014 Farm Bill. Colorado counties are
scheduled to receive a total of $34.5 million.

APPENDIX-^
i

lofl

7/2/2021,4:39 PM >

https: / / www.federalregister.gov/documents/2003/12/24/03-31693/Iimitedenglish-proficiencv-guidance-to-recipients-of-federal-financial-assistancereQuest-for#prin.
Limited English Proficiency Guidance to Recipients of Federal Financial
Assistance-Request for Comments
A Notice by the Interior Department on 12/24/2003
Use of Family Members, Friends, Other Program Participants, or Acquaintances
as Interpreters. Although recipients should not plan to rely on a LEP person's
family members, friends, or other informal interpreters to provide meaningful
access to important programs and activities, where LEP persons so desire, they
should be permitted!® use, attheir own expense, an interpreter of their own
choosing (whether a professional interpreter, family member, friend, or other
informal interpreter) in lieu of or to supplement the free language services the
recipient offers. LEP persons may feel more comfortable when a trusted family
member, friend, or other informal interpreter of their choice acts as an
interpreter. In addition, in exigent circumstances that are not reasonably
foreseeable, temporary use of interpreters not provided by the recipient may be
necessary. However, with proper planning and implementation, recipients
should be able to avoid such situations.
Recipients, however, should take special care to ensure that family, legal
guardians, caretakers, and other informal interpreters are appropriate in light
of the circumstances and subject matter of the program, service or activity,
including protection of the recipient's own administrative or enforcement
interest in accurate interpretation. In many circumstances, family members
(especially children), friends, or other informal interpreters are not competent
to provide quality and accurate interpretations. Issues of confidentiality,
privacy, or conflict of interest may also arise. LEP individuals may feel
uncomfortable revealing or describing sensitive, confidential, or potentially
embarrassing medical, law enforcement, family, or financial information to a
family member, friend, or member of the local community. In addition, such
informal interpreters may have a personal connection to the LEP person or an
undisclosed conflict of interest, such as the desire to protect themselves or
another individual in a criminal matter. For these reasons, when oral language
services are necessary, recipients should generally offer competent interpreter
services free of cost to the LCP person. For DOI recipient programs and
activities, this is particularly true in law enforcement settings, administrative
hearings, situations in which health, safety, or access to important benefits,

APPENDIX ]) i

f*

l

services, or information are at stake, or when credibility and accuracy are
important to protect an individual's rights or access to important services or
information.

i

I

l

i

!

I

1

I
I
I

APPENDIX- P ~Z
4

Federal Register:: Limited English Proficiency Guidance to Rec...

https://www.federalregistCT.gov/documents/2003/I2/24/03-31693..

rh«n»«> origin was required to take reasonable steps to provide them with a meaningful opportunity to
participate in federally funded educational programs.
On August u, 2000, Executive Order 13166 (/executive-order/13166) was issued.^1 Under that Order, every
Federal Agency that provides financial assistance to non-Federal entities must publish guidance on how their
recipients «*n provide meaningful access to LEP persons and thus comply with Title VI regulations
forbidding funding recipients from “restrictfing] an individual in any way in the enjoyment of any advantage
or privilege enjoyed by others receiving any service, financial aid, or other benefit under the program” or
from *utiliz[ing] criteria or methods of administration which have the effect of subjecting individuals to
discrimination because of their race, color, or national origin, or have die effect of defeating or substantially
impairing a<vnrnpli«ihmpnt of the objectives ofthe program as respects individuals of a particular race, color,
or national origin”
On that
day, the Department of Justice (DQJ) issued a general guidance document addressed to
“Executive Agency Civil Rights Officers” setting forth general principles for agencies to apply in developing
piiHanro flnnimwitg for recipients pursuant to the Executive Order. [Enforcement of Title VI ofthe Civil
RightsAct of1964 National Origin Discrimination Against Persons with Undted English Pntfkiency, 65 FR
50123 (/citatioii/65-FR-50i23) (August 16,2000) (“DQJ LEP Guidance”)].
Subsequently, Federal agencies raised questions regarding the requirements of tire Executive Order,
especially in light of the Supreme Court's decision in Alexander v. Sandoval, 532 U.S. 275 (2001). On
October 26,2001, the Assistant Attorney General for tire Civil Rights Division, issued a memorandum for
“Heads of Departments and Agpurips, General Counsels and Civil Rights Directors.” This memorandum
rlarifiwi and reaffirmed the DOJ LEP Guidance in light of Sandoval.1^ The Assistant Attorney General stated
that because
did not invalidate any Title VI regulations that proscribe conduct that has a disparate
impact on covered groups—the types of regulations that form the legal basis for tire part of Executive Order
13166 (/executive-order/13166) that applies to federally assisted programs and activities—the Executive
Order remains in force.
Pursuant to Executive Older 13166, (/executive-order/13166) DOJ developed its own guidance document for
recipients ("LEP Guidance for DOJ Recipients”) and initially issued it in final on June 18,2002 (67 FR 41455
(/dtation/67-FR-4i455), also available at http://wwwJep.gov (http://wwwJep.gov)). Consistency among
departments of the Federal government is particularly important Inconsistency or contradictory guidance
could confuse recipients of Federal funds and needlessly increase costs without rendering the meaningful
access for LEP persons that this Guidance is designed to address. As with most government initiatives, this
requires
several principles. While this Guidance discusses that balance in some detail, it is
important to note the basic principles behind that balance. First we must ensure that federally-assisted
programs «««»at tire American public do not leave some behind simply because they face challenges
communicating in English. This is of particular importance because, in many cases, IEP individuals form a
substantial portion of those encountered in federally assisted programs. Second, we must achieve this goal
while finding constructive methods to reduce the costs of LEP requirements on small businesses, small local
governments, or amnll non-profits that receive Federal financial assistance.

l

III. Who Is Covered?

5 of 21

Under Title VI of the Civil Rights Act of 1964,42 U.S.C. 2000 (https://apiidsys.gov
/1mk?<x41erti"«=u*codrfrtftle=4Qtyear=mostr«rantfesection«2000&type«=iiscfelink-type=html)d etseq.,
and implementing regulations, recipients of Federal financial assistance are required to provide meaningful -

APPF.NT)TV~D-z>

!

7/25/2021,1:05 Plv

https://www.federalregister.gov/documrats/2003/12/24/03-31693...

Federal Register:: Limited English Proficiency Guidance to Rec...

access to LEP persons.*51 Federal financial assistance includes grants, cooperative agreements, training, use
of equipment, donations of surplus property, and other assistance. D Examples of recipients that receive DOI
assistance include the following:

0 Start Printed

■ State fish and wildlife agencies;
■ Sate and local park and recreation departments;
■ State and local parte police departments including fish and wildlife conservation law enforcement
agencies;
■ State geological survey agencies;
• State and local historic preservation agencies including historical sites and places; and
a Irrigation districts and other public entities providing water and power services.
Sub-recipients are covered when Federal fends are passed through from one recipient to a Sub-recipient.
Sub-recipients of DOI assistance include, for example:
a County and city parte and recreation agencies;
a State and local government agencies; and
a Public and/or private organizations.
Coverage extends to a recipient's entire program or activity, i.e., to all parts of a recipient's operations. Ibis is
true even if only one of die recipient's proyams or activities receives the Federal assistance.w

Example:
DOI provides assistance to a city parks and recreation department to develop or improve one particular park.
All aspects of the city parks and recreation department's operations—not just the particular park slated for
development or improvement—are covered.
Finally, some recipients operate in jurisdiction in which English has been declared the official language.
Nonetheless, these recipients continue to be subject to Federal non-discrimination requirements, including
those applicable to the provision of federally assisted programs and activities to persons with limited English
proficiency.

IV. Who Is a Limited English Proficient Individual?
Individuals who do not speak English as their primary language and who have a limited ability to read, write,
speak, or understand English can be limited English proficient (LEP) and therefore entitled to language
accictam*. with respect to a particular type of service, benefit, or encounter. Examples of populations likely to
include LEP persons that DOI recipients serve or encounter and accordingly, should consider when planning
language services include, hut are not limited to:
■ Persons who are actual or potential program beneficiaries of recreation or education programs including
those applying for fishing and hunting licenses, or desiring information regarding program availability;
a Persons visiting historical sites and places;
■ Persons who encounter natural resources conservation law enforcement officers or other law
enforcement recipients of DOI assistance;
■ Persons needing information on health, environmental impact, safety, or other warnings or information
from recipients of DOI assistance; and
6 of 21

a Parents and family members of die above.

APPENDIX-P-4

i

7/25/2021,1:05 PM

Hiring staff Interpreters. Hiring
information or sendees of the program
addition, such Informal Interpreters may
interpreters may be most helpful where and can communicate directly with LET have a personal connection to the LEP
there is a frequent need for interpreting persons In their language. Just as with
person or an undisclosed conflict of
services in one or more languages.
all interpreters, community volunteers
Interest, such as the desire to protect
Depending on the facts, sometimes It
used to Interpret between English
themselves or another perpetrator in a
may be necessary and revonable to
speakers and I£P persons, or to orally
domestic violence or other criminal
provide on-site interpreters to provide
translate documents, should bo
matter. For these reasons, when oral
accurate and meaningful
competent In the skill of Interpreting
language services are necessary,
communication with an LEP person.
and knowledgeable about applicable
recipients should generally oner
Contractingfor interpreters. Contract confidentiality and impartiality rules.
competent interpreter sendees free of
interpreters may be a cost-effective
Recipients should consider formal
cost to the LEP person. For DO)
option when there is no regular need for arrangements with community-based
recipient programs and activities, this is
a particular language skill. In addition
organizations that provide volunteers to particularly true in a courtroom,
to commercial and other private
address these concerns and to help
administrative hearing, pro* and p ostproviders, many community-based
ensure that services are available more
trial proceedings, situations in wnlch
organizations and mutual assistance
regularly.
health, safety, or access to important
associations provide interpretation
Use ofFamily Members^ Friends,
benefits and services are at stake, or
services for particular languages.
pther lnatates, or Other Detainees as
when credibility and accuracy me
Contracting with and providing training interpreters. Although recipients should important to protect an individual's
regarding the recipient's programs and
hot plan to rely on an LEP person's
rights and access to Important services,
processes to these organizations can be family members, friends, or other
An example of such a case is when
informal interpreters to provide
police officers respond to a domestic
a cost-effective option for providing
language services to LEP persons from
meaningful access to important
violence call, in such a case, use of
those language groups.
programs and activities, where LEP
family members or neighbors to
Using Telephone Interpreter Lines.
persons so desire, they should be
interpret for the alleged victim.
Telephone Interpreter sendee lines often permitted to use. at their own expense,
perpetrator, or witnesses may raise
offer speedy interpreting assistance in
anintorpreterofthclrownchoosing
serious issues of competency,
many different languages. They may be
(whether a professional interpreter.
confidentiality, mid conflict of interest
and is thus inappropriate. While issues
pa rtfculariy appropriate where the mode family member, friend, other inmate.
of communicating with an English
other detainee) In place of or as a
of competency, confidentiality, and
proficient person would also bn over the supplement to the free language services conflict of Interest in the use of family
phono. Although telephonic
expressly offered by the recipient. LEP
members (especially children), friends.
Interpretation services are useful In
persons may feel more comfortable
other inmates or other detainees often
many situations, it is Important to
when a trusted family member, friend.
their use inappropriate, the use of
ensure that, when using such services. or other Inmate acts as an Interpreter. In these Individuals as interpreters may be
the interpreters used arc competent to
addition. In exigent circumstances that
an appropriate option where proper
interpret any technical or legal terms
are not reasonably foreseeable, \
application of the four factors would
specific to a particular program that may temporary use of Interpreters not
lead to a conclusion that rcclpientbe Important parts of the conversation.
provided bv tire recipient may be
provided services are not necessary. An
Nuances in language and non-verbal
necessary. However, with proper
example of this is a voluntary
communication can often assist an
planning and Implementation.
educational tour of a courthouse offered
Interpreter and cannot be recognized
recipients should be able to avoid most to
public. There, the importance and
over the phone. Video teleconferencing such situations,
nature of the activity may be relatively
may sometimes help to resolve this
Recipients, however, should take
jow ^ unlikely to’wnpflcatc Issues of
Issue where necessary. In addition.
special care to ensure that family, legal
confidentiality, conflict of interest, or
where documents are being discussed. It guardians, caretakers, and other
^e npC}Ci
accuracy. In addition, the
Is important to give telephonic
informal interpreters are appropriate in resources needed and costs of providing
Interpreters adequate opportunity to
light of the circumstances and subject
language services may bo high, in such
review the document prior to the
matter of the program, service or
a setting, an LEP person's use of family,
discussion and any logistical problems* activity, including protection of the
friends, or others may be appropriate/
should be addressed.
recipient's own administrative or
If the LEP person voluntarily chooses
Using Community Volunteers. In
enforcement interest in accurate
to provide his or her own interpreter, a
addition to consideration of bilingual
interpretation. In many circumstances.
recipient should consider whether a
staff, staff interpreters, or contract
family members (especially children).
record of that choice and of the
Intorp retore (either in-person or by
friends, other inmates or other detainees recipient's offer of assistance is
telephone) as options to ensure
are not competent to provide quality
appropriate. Where precise, complete,
meaningful access by LEP persons, use
and accurate Interpretations. Issues of
of recipient-coordinated community
confidentiality, privacy, or conflict of
n^inRthr w.luniorv nniurr-. conflii* »r iairmM.
volunteers, working with, for instance. interest may cuso arise. LEP individuals and privacy PM*r*»um»uutiinfi ihrus-nr inmate
community-based organizations may
mayfcel uncomfortable revealing or
awl dr-tolw-r*.»iawpn-it-rr.- puriiuLjiuly whw Dn
provide a cost-effective supplemental
describing sensitive, confidential, or
language assistance strategy under
potentially embarrassing medical, law
intr^nuliim imUtalu-. ln«nmr*4iiuHion*. innuir*
appropriate circumstances. They may be enforcement (*&. sexual or violent
tmiid p*rft'niia!iv mbitM* mfr>rmflii«>nihrv nfotainrd
particularly useful in providing
assaults), family, or financial
»*» intwpiHin« tin i*hrr inraatr*. in oddHit.n in
te^acc<*«for.^Iptot-stes
information... family mcmberfrioml.
critical programs and activities. To the
or mcmbor of the local community.111n
tnfa>ma»unt wfu-n drtwmininR
extent the recipient relies on
__________
whrihrrun bimair nrdr-lnlnrr n»oki*a knmrin*:
community volunteers, it is often best to >* Fi*r raamplr. *prcial nruitrurtafUJ-snf
and voluntary thofcrin uw annthrr inmatf-nr
use volunteers who are trained In the
umnnrmrnl may raiw oddilinnal *rrimiM:nncrrn» drtoiwr a» an inlrrprrtrr.

APPENDIXI

LARIMER
COUNTY

COMMUNITY DEVELOPMENT DIVISION
200 West Ook 9reet, Sute3100
tost Cfficz Bax 1190
Fort Gafin* Ctforado 80522-1190
faming (970) 498-7683 BuOdng (970) 498-7700
http ://Wuwiarimer.anj/plani»ng

Neighbor Notification - Public Hearing Phase
Date: Wednesday, August 23,2017
You are receiving this letter because your property is located in the vicinity of a proposed planning
application. The application is in the second phase of review ..iled the Public Hearing Phase. In
this phase, public hearings are held and a final decision is made regarding the project. The project
has been submitted and is being reviewed but it has not yet been scheduled for a hearing. When a
hearing is scheduled, a notice will be sent informing you of the hearing date.
Your participation in the development review process is important. It will help to ensure that die
proposed project receives the benefit of your comments and also assists the project applicant,
T jrimpr County Staf£ and Boards and Commissions to better understand your concerns.
Your
Therefore, we are asking neighbors to respond with comments about the application,
comments are welcome at any time during this phase; however, all comments received prior to the
public hearings will be included for consideration by the County Commissioners.
To view the plan documents, please visit the Community Development Online Portal at
www.lsuAmet.oig/oiilinepottal ««d search for die application under the Lad Use/Zoning Apps tab
by using the address or Plan No. provided below.
To request a copy of the application materials, submit comments, or obtain additional information
regarding die application, please contact the planner assigned to review this project:
Name: Rob Hehnick
Phone: 970-498-7682
Kmatl: rhehnick@lanmet.otg
Mail: T .arimer County Planning Department, PO Box 1190, Fort Collins, CO 80522
Summary of the Pnhlic Hearing Proposal:
LaPorte Pit Special Review
Application Name:
Plan No.: 17-ZONE2113
Property Address: On the North side of County Road 540 just east of Kintzley Plaza, north of the
Plantaonum.
Special Review for open mining of sand and gravel,
Request Public Hearing application for
on-site material processing and a concrete batch plant on 123 acres.
fummeirta:

My Name (Optional):

My Address (Optional):

APPENDIX-B

COLORADO
; Division of Reclamation,
; Mining and Safety
of N'atu'a; Hesc.i'ce-

1313 Sherman Street, Room 215
Denver, CO 80203

DATE:

March 2, 2018

RE:

Rationale for Recommendation for Conditional Approval of a 112c Application with
Public Objections, Loveland Ready-Mix Concrete, Inc., Knox Pit, File No. M-2017-036
Introduction

Herein, all references to the Act and Rules refer to the Colorado Land Reclamation Act for the Extraction
of Construction Materials, 34-32.5-101 et seq., C.R.S. (the Act), and to the Mineral Rules and
Regulations of the Colorado Mined Land Reclamation Board for the Extraction of Construction Materials
(the Rules or Rule). Copy of the Act and Rules are available through the Division’s web site at
http://mining.state.co.us.
On March 2,2018, the Division of Reclamation, Mining and Safety (DRMS, Division or Office) issued
its recommendation to approve with conditions the permit application for the Knox Pit, File No. M-2017036, over public objections. This document is intended to explain the process by which the Division
arrived at its recommendation for conditional approval, over public objections, and respond to the issues
raised by the objecting parties and commenting agencies. The Division reserves the right to further
supplement, amend, modify, or clarify this document and recommendation with additional details as
necessary.
Summary of the Review Process
Loveland Ready-Mix Concrete, Inc. (LRM or Applicant) filed the application with the Division on
September 7,2017. The application was deemed complete for the purposes of filing and for review on
September 18,2017. The application describes a construction materials mining operation with on-site
processing of mined materials to include crushing, screening, washing and production of concrete
products. The permit boundary includes 127 acres. Of the 127 acres, the mining operation is anticipated
to affect the majority of the area with the exception of some areas within the proposed mining set-backs
shown on the Exhibit C, Sheet 3 and 4 maps. Some of the area within the proposed setbacks may be used
for topsoil and overburden storage placed in berms to provide a visual barrier. Affected lands would be
reclaimed to support Pastureland post-mining land use. Notice of the filing occurred in accordance with
the requirements of the Act and Rules. The public comment period closed on November 8,2017. During
the public comment period the Division received written comments from the following individuals and
agencies:

APPENDIX-FI
4fi8fe>

\
\

y?*
%

Colorado Mined Land Reclamation Board
Page 2
March 2, 2018

\:%

’i

i

Timely Letters of Objection:
Person or Entity
Craig Greenwell
Terry Waters
Matthew and Jayme Tilley
John Gross
Jennifer Scheimann
Patty McElwaine
Leslie Patterson
Dr. Mandy Kotzman
Ruth Wallick
Pia Jensen
Nic Koontz
No Laporte Gravel Corp
Peter Waack
Amy Maddox
Chalon Kintzley
Dana Home
Jason Allely
Kelly Kintzley
Leah Kintzley
Leah Salmans
Raymond Kintzley
Sarah Allely
Erin Crowgey
Erica and Piers Daniel!
Mark Baker, Esq.

Date Objection
Received
11/2/2017
11/5/2017
11/6/2017
11/6/2017
11/7/2017
11/7/2017
11/7/2017
11/7/2017
11/7/2017
11/8/2017

i

11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/8/2017
11/7/2017

Timely Commenting Agency:
Agency
Colorado Division of Water Resources

Date Comment Received
9/26/2017

APPENDIX-

rage j
March 2. 2018

j Office of Archaeology and Historic Preservation (History Colorado)
j Army Corps of Engineers

10/17/2017
10/3/2017

Un-timely Commenting Agency:
Date Comment Received

Agency

3/1/2018

Colorado Parks and Wildlife
Parties Who Have Withdrawn:
Person or Entity
Pia Jensen

Date Withdrawal
Form Received
2/23/2018

The Division forwarded copies of all comments to the Applicant and scheduled the application for a
hearing before the Colorado Mined Land Reclamation Board (the Board) and a Pre-hearing Conference.
The Division provided notice of the scheduled Board hearing and Pre-hearing Conference to all parties
and interested persons. Due to the timely objections, on the decision date the Division would not make a
decision on the application, but rather a recommendation to the Board.
During the review period the Division generated four adequacy letters. The Applicant addressed all
adequacy issues to the Division’s satisfaction. Therefore, on March 2,2018, the Division determined the
application to have satisfied the requirements of Section 34-32.5-115(4) C.R.S. and issued its
recommendation to approve the application with the following conditions:
I.

No less than 60 days prior to exposing groundwater and/or initiating dewatering operations, LRM
shall submit to the Division the results of the baseline water quality monitoring. The results shall
include an analysis of the water quality and a discussion of any exceedances of the table value
standards for the analytes evaluated within the approved water monitoring plan.

II.

When the Operator has completed mining in each mine phase, they shall submit to the Division
an as-built or record of drawing(s) certified by a professional engineer registered in the State of
Colorado of the clay liner and perimeter drain for each phase of the operation (Phases 1 through
5). The registered professional engineer certification must demonstrate the liner and drain were
installed to the required specifications. The registered professional engineer certified as-built or
record drawing(s) shall be submitted the Division not less than 60 days prior to initiating mining
in the next or subsequent phase.

Pursuant to Rule 1.4.1(12), a condition or limitation to approval of the application, unless consented by
the Applicant, shall be treated as a denial. Therefore, if the Applicant rejects any of the following

i

APPENDIX-F-3

x*

\*§.j
Colorado Mined Land Reclamation Board
Page 4
March 2,2018

conditions for approval, or portions of a condition, the Division’s recommendation, by operation of Rule,
automatically becomes a recommendation for denial of the application.
Issues Raised by the Objecting Parties and Commenting Agencies
The timely objections/comments received by the Division have been categorized as issues pertaining to
Enforcement, Hydrology, Permitting, Reclamation and Wildlife. These categories are listed below and
titled with bold font. Under each category the specific issues are listed in bold and italic font. The
number of objectors which raised the issue is indicated in parenthesis.
1. Enforcement Issues
a. Concerns regarding the lack ofenforcement ability and timingfor enforcement, (4)
Section 3.2 and 3.3 of the Rules provides Division staff with the authority to conduct inspections of
permitted mine sites and possibly unpermitted mine sites to determine whether the provisions of the Act
and Rules have been complied with. Also, these Rules require the Division staff to promptly report to the
Board any possible violation of a permit, law or the Rules of which they have knowledge whether
obtained from personal inspection or from written reports. These Rules continue to outline the
enforcement processes should a violation be found.
The Division routinely conducts inspections of mining operations and takes proper enforcement action.
Many of these inspections are conducted as a result of a citizen’s complaint. If a citizen’s complaint
pertains to an issue for which the Division does not have jurisdiction, the Division will forward the
complaint to the proper jurisdiction.
The Board has directed the Division’s staff to respond to citizen complaints within thirty days of receipt
of the complaint. If a citizen complaint alleges either serious environmental problems associated with an
operation or potential violation of approved conditions, Rules, or statutes, the Division shall conduct an
inspection as soon as possible, but no more than five working days after receipt of the complaint.
2. Hydrology
a. Concerns regarding surface and groundwater quality. (19)
The Division finds LRM has supplied the required information regarding water information in accordance
with Rule 6.4.7.
LRM is proposing a closed surface water system intended to capture all stormwater produced on the site
and that which currently runs onto the site. Stormwater will be directed toward the mine excavations and
stormwater retention ponds. LRM affirmatively states that they will apply for a National Pollutant
Discharge Elimination System permit from the Water Quality Control Division (WQCD) of the Colorado

APPENDIX- P-4

Page ?
March 2, 2018

Department of Public Health and Environment (CDPHE) should one be required. LRM further commits
to submitting an application to the WQCD for stormwater coverage in accordance with Colorado
Discharge Permit System General Permit for Stormwater Discharge Associated with Construction
Activities. LRM will develop an operations Stormwater Management Plan (SWMP) for the facilities
associated with sand and gravel mining and ancillary batch plant operations. The SWMP will be kept on
site so the Division can review it during an inspection. The Division finds that the proposed plan meets
the requirements of Rule 3.1.6(1), which requires disturbances to the prevailing hydrologic balance of the
affected land and of the surrounding area and the quality of the water in the surface water system both
during and after the mining operations and during reclamation shall be minimized.
Concerns have been raised regarding the mines potential impact to the groundwater quality. In
accordance with Rule 3.1.7, operations that may affect groundwater quality shall comply with all state­
wide groundwater quality standards established by the Water Quality Control Commission (WQCC).
Given this, LRM has submitted a groundwater sampling and analysis plan. The Division required and
LRM agreed to collect baseline water quality data sufficient to characterize existing groundwater quality.
The WQCC Basic Standards for Groundwater Regulation 41 table values were used to establish the
analyte list and analytical detection limits of the monitoring plan. LRM shall not expose groundwater or
initiate dewatering operations until they have collected the required baseline water quality data. During
the life of the operation, LRM will continue to monitor water quality and shall submit the results of water
quality monitoring with their annual report. Through these measures, LRM will be required to comply
with the applicable WQCC standards. The groundwater monitoring plan complies with Rule 3.1.7(7).
b. Concerns regarding the impact ofthe mining operation dewatering on surrounding
groundwater levels. (19)
LRM modeled the potential impacts of the groundwater levels at the mine and the surrounding area
during the proposed mining and reclamation operation. During mining of the five phases, drawdown of
the alluvial aquifer was predicted to occur. The largest off-site drawdowns are anticipated during the
mining phase north of the Little Cache La Poudre Ditch. No wells are known to exist in this area. On the
south side of the mine, three wells are predicted to be impacted by dewatering operations. The Applicant
has committed to monitoring water levels withinl4 monitoring wells installed at the site and several
adjacent neighbors wells during the life of the mine. LRM commits to mitigating impacts to affected
wells and has proposed a trigger level where mitigation measures may be initiated if necessary.
Similarly, LRM has predicted slight groundwater mounding up-gradient of the permits west boundary and
near the water management pond. The most significant predicted mounding is due to reinjection into the
water management pond. If groundwater level monitoring shows mounding, LRM will take action to
determine the cause of the change, initiate mitigation measures and will explore long-term solutions.
As mining and reclamation proceed, LRM will install a perimeter drain along the outer perimeter of die
excavation that will serve to dewater the toe of the highwall to maintain stability. Once the gravel pit

APPENDIX-F-5

Colorado Mined Land Reclamation Board
Page 6
March 2,2018

perimeter is entirely sealed, the perimeter drain will serve to route groundwater around the lined pit by
maintaining a high permeability area adjacent to the compacted backfill.
The Division finds the Applicant has supplied the information required by Rule 6.4.7 and the operation
will minimize disturbances to the prevailing hydrologic balance of the affected land and surrounding
areas both during and after mining with respect to existing groundwater levels.
c. Concerns regarding the impact ofgroundwater drawdown on adjacent trees, (4)
The proposed mine site is not located within a riparian area and the Division finds it unlikely the adjacent
ornamental vegetation would be reliant on groundwater and would likely rely more on surface irrigation.
Given the temporary nature of the drawdown at the site and LRM’s proposed plan to mitigate the impacts
to adjacent well owners to insure use of their wells for irrigation continues, the Division finds the
operation will not adversely affect the surrounding vegetation.
d, Concerns regarding the effectiveness ofthe proposedperimeter drain, (12)
LRM has provided a demonstration the perimeter drain has been designed to adequately move
groundwater around the perimeter of the lined pits. LRM has also provided a groundwater level
monitoring plan that will allow both LRM and the Division to evaluate the effectiveness of the drain both
during mining and reclamation.
e. Concerns regardingflooding, flood management and mapping, (2)
The Division has reviewed the proposed site’s location in relation to the Federal Emergency Management
Agency (FEMA) Floodplain maps provided by the City of Fort Collins. The Knox Pit permit boundary is
located outside of the FEMA High Risk Floodway, High Risk 100 year Floodplain and the Moderate Risk
100/500 year Floodplain (please see the map below). Regarding surface water management, LRM has
designed the site to direct surface flow into the pit basins and designated stormwater sumps.

appendixfc.

Page 7
March 2. 2018

V;;.?

FCMaps

jffifcoWns

• n « ..*«•

fir

* i

A.
C*cAe

Ltgtnd
FEWV Floodplain

'o-ryir* f-i

FfiU

reiu't*
*t»M
l

jport«»

. 1 tc KC r

FgMA Map Pawl
City Fiootfptars
m C« ^fcu^cMnr
C*» •'♦jh

.2

tf|Vae*'V«BW > 'X

- - •;••• ! . ' •

£j

Dly Limits

■i.

1«.

4-.V,

■

I

S' • V ■•(. Li

S

I

*

§

r 111- .

'

I 137(9

v...
9

2.286 0

W3S.1M4.W*0.Macat0'.*vi«SiV.Sp1»'*

1 143 00

2 288 0 Foot

©

Notm

Ths map is a user amtrtta suuc ouiw Horn v* City ol Fat COW'S FCMaps
insist i^apt^to t4»an0 ft tot ifWwPcoowy Patit^ftiswaooftvatttus
map may o may mt s* acuK*, eiw* o' ocwiyns* wapn

CFyotFcn Will’s • GI5

3. Permitting Issues
a. Concerns regarding missing application Exhibits (Exhibits C and G). (2)
The application included Exhibits C and G. When the application was first submitted the Exhibit C maps
were incorrectly scanned into the Division’s imaged document system (Laserfiche). Once the Division
became aware of this issue the oversight was promptly corrected. These maps, as well as the entire
permit application package, were available for public review at the Division’s office and at the County
Clerk and Recorders Office, as required under the Act and Rules.
b. Concerns regarding the description ofthe site location. (1)

APPENDIX-F-7

\

I
:
W

Colorado Mined Land Reclamation Board
Page 8
March 2,2018

\

The Exhibit B index map submitted with the application is found to meet the requirements of Rule 6.4.2,
as it shows all roads and other access to the area. The map background image appears to be a standard
U.S. Geologic Survey topographic quadrangle map.
c. Concerns regarding the climate information. (1)
The Division found the climate information, Exhibit K, compliant with the requirements of Rule 6.4.11.
d. Concerns regarding the public notice. (12)
Rule 1.6.2(l)(d)(vi) requires the Applicant to indicate the location and final date for submitting statements
of support or objection with the Office. The Applicant’s public notice indicated comments must be in
writing and must be received by the Division not more than 20 calendar days after the last date of the
newspaper publication. The publication dates are included at the end of the newspaper notice. Therefore,
the final date for submitting statements of support or objection with the Office was provided in the
newspaper notice, as required under Rule 1.6.2(I)(d)(vi).
4. Reclamation Plan
a. Concerns regarding discrepancies ofthe proposedpost mining land use. (12)
LRM is the owner of the surface of the proposed affected land and the substance to be mined. The pre­
mining land use of the site is primarily pastureland. Initially, LRM proposed two post-mining land uses
for the site; Pastureland and shelter and cover for wildlife. LRM later clarified Pastureland as the post­
mining land use for all affected lands to be consistent with their plan for the site once mining is complete.
Pastureland is consistent with the historic and pre-mining land use described by the Applicant and as
observed by the Division during the pre-operational inspection. The proposed description of the post­
mining land use meets the requirements of Rules 6,4.5(2) and 3.1.1.
b. Concerns that the reclamation plan providesfor an unacceptable change to the land and is
inadequate. (7)
The Division determined the proposed reclamation plan and post-mining land use compliant with the
applicable requirements of Rules 6.4.5 and 3.1.
c. Concerns that the reclamation plan does not restore the land to the pre-mining condition
and the post mining topography does not restore the land to the approximate original
contour. (2)
C.R.S. 34-32.5-103(19) defines reclamation as the employment, during and after an operation, of
procedures reasonably designed to minimize as much as practicable the disruption from an operation and
provide for the establishment of plant cover, stabilization of soil, protection of water resources or other

APPENDIX-

Colorado Mined Land Reclamation Board
Page 10
March 2,2018

Mixture Percent
Species
30%
Intermediate Wheatgrass
25%
Slender Wheatgrass
25%
Pubescent Wheatgrass
10%
Russian Wildrye
10%
Western Wheatgrass
♦Seed mixes will be designed to accomplish an application rate of 65 seeds per square foot.
5. Wildlife
a. Concerns that wildlife protection measures are inadequate, (13)
With LRM’s response to the Division’s first adequacy review they provided details regarding how
wildlife will be protected near the mining operation and processing sites. These measures include the
following:
• phased mining plan with concurrent reclamation
• buffer zone around the Little Cache La Poudre Ditch
• safety berms around the pit excavations
• provide locations for egress from the pit area
• ten mile per hour speed limit for mine traffic
• Applicant has submitted a raptor nest monitoring and mitigation plan
By conducting concurrent mining and reclamation, the Applicant will limit the amount of land disturbed
by the mining operation and allow wildlife to utilize un-mined areas and reclaimed areas throughout the
life of the operation. Colorado Parks and Wildlife (CPW) did not provide the Division comments during
the comment period regarding the operation in accordance with Rule 6.4.8(2). However, the Division
consulted with Shane Craig, District Wildlife Manager with CPW. Mr. Craig indicated CPW does not
anticipate any negative impact to wildlife at this time from the proposed project. The Division finds the
Applicant has adequately addressed the requirements of Rule 6.4.8 and Rule 3.1.8.
h. Concerns regarding the potentialfor wildlife poisoning by the consumption ofreclaimed
vegetation that has increased Selenium (Se) levels, (12)
The objectors raise the concern that reclaimed vegetation established closer to the Pierre Shale bedrock
poses a risk of Selenium (Se) poisoning to wild and domesticated animals. The objectors cited a study
(McDowell et al. 2005) to substantiate this claim. According to the study, three experiments were
conducted on sheep to evaluate the maximum tolerance levels of Se. Based on the findings of die report
Selenium toxicosis was not found in any experiment. LRM plans to cover the reclaimed area and pit floor
with three feet of cover material and growth medium. LRM argues the Pierre Shale has low hydraulic
conductivity and is relatively diy and that the mechanism for moving constituents upward into the cover
material will be by the slow process of molecular diffusion. Regardless, LRM has committed to sampling

APPENDIX" P"?

/ Page'll
/ March 2. 20IS

vegetation after closure to evaluate if plant up-take of Se is an issue. Given the findings of the study
supplied by the objectors, the proposed plan provided by LRM, and discussions with CPW, the
application demonstrates the operation will be protective of wildlife resources.
c. Request ofa surveyfor Preble *s Jumping Mouse. (12)
Using the United States Fish and Wildlife Service (USFWS) Information, Planning and Conservation
System (IPaC) resource online program, the Division evaluated the presence and potential habitat of
Threatened and Endangered species at the site. The Division confirmed LRM’s finding discussed in
Section 10.1 of their application that no critical habitats exist within the project area for threatened and
endangered species. Preble’s Meadow Jumping Mouse is a threatened species which may occur within
the project area. However, critical habitat for this species have been designated and the proposed project
is outside of the critical habitat. CPW did not indicate Preble’s Jumping Mouse to be of concern.
d. Concerns that the bird list contained in the application is incomplete. (13)
The Division understands that many wildlife species may utilize the proposed affected land. Mining may
temporarily displace some wildlife species during the operation but they often can be found utilizing the
mined area as well as the reclaimed area. Based on the Division’s consultation with CPW, the proposed
operation should not have a significant impact on wildlife resources in the area. Given this, the
evaluation of species provided by LRM is found to be sufficient.
e. Concerns regarding the impact the mining operations will have on raptors. (13)
The Applicant conducted an Avian Survey on January 30,2018. The survey found two magpie {Pica
hudsonia) nests within the proposed mine area. Neither nest was active during the survey. No raptor,
eagle, or owl nests were identified within the project area or adjacent areas. The survey included the
results of a database search of the Colorado Oil and Gas Conservation Commission website. Based on
this search, bald eagles nests were found to be 1.76 miles east and 4 miles northwest of the site. A gold
eagle nest was found 2.1 miles northwest of the site and osprey nests were found ranging 1 to 4.6 miles
from the site.
LRM has proposed a monitoring plan to identify raptor nests during the operation. The site will be
surveyed during August of each year to insure there are not any nests within 600 feet of die scheduled
mining area for the next year. Mining activities that are to take place within 400 feet of any identified
nests will be adjusted to start during a non-nesting season. Based on the Division’s consultation with
CPW, no known nests occur in the vicinity of the proposed mining area. The Division finds LRM’s
raptor nest monitoring and mitigation plan sufficient.
f.

Concerns regarding the impact on the migration route ofdeer. (1)

APPENDIX-F-fo

Colorado Mined Land Reclamation Board
Page 12
March 2,2018

Based on the Division’s consultation with CPW, the proposed permit area is not within the migration
route or corridor for large ungulates such as deer, elk or antelope. A buffer zone will be maintained
around the Little Cache La Poudre Ditch which may be used by wildlife as a travel corridor.
g. Concerns that wildlife will not utilize the reclaimed area. (13)
Affected lands will be reclaimed to support Pastureland post-mining land use. Wildlife habitat is not the
goal for reclamation of the site. The Applicant proposes to revegetate the affected land with pasture
grasses which provide cover and forage for wildlife species. The Applicant intends to plant trees and
shrubs around the perimeter of the site which may also be utilized by wildlife.
h. Concerns regarding the possible increase in automobile and wildlife accidents resulting in
the change in animal movement because ofthe mining operation. (13)
As discussed previously, the proposed permit area is not a migration route for large ungulates. Based on a
discussion with CPW staff, deer have been known to utilize the Little Cache La Poudre ditch as a
movement corridor. The Applicant has proposed a buffer zone around the ditch that will allow wildlife to
continue to utilize this feature as a movement corridor. Also, given the phased manner of mining and
reclamation, LRM will limit the amount of disturbed area and thereby minimize any disturbance to
wildlife. As noted previously, LRM has proposed a 10 miles per hour speed limit to be maintained on­
site which will minimize the potential for wildlife impact accidents with mine traffic.
6. Non-Jurlsdictional Items
In these proceedings, the Division’s jurisdiction is limited to enforcement of the specific requirements of
the Act and Rules. The Division considers all timely submitted comments in its review, but can address
only the issues that directly relate to the specific requirements of an application as stated in the Act and
Rules.
a. Concerns regarding the mine operation being incompatible with historic, current, and
future land uses and being in conflict with local Laporte Area Plan. (5)
The Act and Rules do not specifically address issues of zoning and land use. Such issues are typically
addressed at the local government level and not at the State government level. These issues should be
addressed through the Larimer County permitting process.
According to Section 34-32.5-115(4)(d) C.R.S., the Board or Office may deny an application if the
proposed operation is contrary to die laws or regulations of Colorado or the United States, including but
not limited to all federal, state, and local permits, licenses, and approvals, as applicable to the specific
operation. On September 18,2017, the Division provided notice of the permit application to Larimer
County. Larimer County has not indicated any conflict with local zoning, local regulations or the Laporte

APPENDIX-f- II

/'Page 13
f March 2, 2018

Area Plan for the proposed mine operation. Further, in accordance with Exhibit M of the application, the
Applicant has indicated they are in the process of obtaining a County Zoning and Land Use permit.
b. Concerns regarding traffic, traffic safety, noise pollution, aesthetic impact and quality of
life. (19)
The Act and Rules do not specifically address traffic, traffic safety and road impacts for roads located off­
site of a mining operation. Such issues are under the jurisdiction of Larimer County and the Colorado
Department of Transportation. These issues should be addressed through die permitting processes of
Larimer County and Colorado Department of Transportation.
The Act and Rules do not specifically address impacts to visually appealing landscapes, aesthetics, hours
and/or days of operation, noise and sight pollution, and quality of life. Such issues are typically
addressed at the local government level and not at the State government level. These issues should be
addressed through the Larimer County permitting process.
c. Concerns regarding adverse impacts to recreation and the negative impact to surrounding
businesses. (10)
The Act and Rules do not specifically address impacts to recreation and local businesses. Such issues are
typically addressed at the local government level and not at the State government level. These issues
should be addressed through the Larimer County permitting process.
d. Concernsfor devaluation ofnearby property. (11)
The Act and Rules do not specifically address issues regarding devaluation of nearby property. Such
issues are typically addressed at the local government level and not at the State government level. These
issues should be addressed through the Larimer County permitting process.
e. Concerns regarding the concentration ofmining operations and the cumulative impacts of
multiple mine operations located in close proximity to one another. (14)
The Act and Rules do not prohibit the concentration of mining operations and their cumulative impacts.
Conversely, the Act and Rules anticipate mining operations will locate wherever mineable resources
exist. The Act and Rules provide reclamation requirements to ensure affected lands are reclaimed to a
beneficial use. The Act and Rules provide performance standards and environmental protection
requirements, which apply throughout the life of mine. Pursuant to Rule 1.4.1 (10), each application is
reviewed, and ultimately approved or denied based on the Applicant’s ability to demonstrate the
application meets the requirements of the Act and Rules.
f

Concerns regarding dust and air pollution. (12)

APPENDIX- F-\2

X,

I

Colorado Mined Land Reclamation Board
Page 14
March 2,2018

The Act and Rules do not specifically address air quality issues. Such issues are under the jurisdiction of
Larimer County and the Air Pollution Control Division (APCD) of the Colorado Department of Public
Health and Environment (CDPHE). The Applicant has affirmatively stated that an APEN permit from the
APCD addressing air pollution issues is being pursued.
The Act and Rules do not authorize the Division to regulate dust or air pollution issues. However, the
protection and preservation of stockpiled topsoil is addressed under the performance standards of Rule
3.1.9. Pursuant to Rule 3.1.9(1), where it is necessary to remove overburden in order to expose the
mineable materials, topsoil shall be removed and segregated from other spoil. If such topsoil is not
replaced on a backfill area within a time short enough to avoid deterioration of the topsoil, vegetative
cover or other means shall be employed so that the topsoil is protected from erosion, remains free of any
contamination by toxic or acid-forming material, and is in a usable condition for reclamation. The
Division has determined one year to be an appropriate time frame for the establishment of a protective
vegetative cover for stockpiled topsoil, and requires the same for all mining operations throughout
Colorado. The Applicant has committed to establish vegetation on the topsoil stockpiles and committed
to taking appropriate erosion control measures to stabilize topsoil stockpiles and berms.
g. Concerns regarding the creation ofhabitatfor mosquitos* (4)
The Act and Rules do not specifically address this issue.

References:
McDowell, L.R. P.A. Davis, L.A. Cristaldi, N.S. Wilkinson, C.D. Buergelt and R. Van Alstyne, 2005.
Selenium Toxicity for Ruminants - Paranoia or Precaution? Department of Animal Sciences University of
Florida, Gainesville, 2005 Florida Ruminant Nutrition Symposium, Gainesville, Florida

APPENDIX-P-I3
I

COLORADO
Division of Reclamation,
Mining and Safety
DeDai".r^etv, of Naura'i Resources

1313 Sherman Street, Room 215
Denver. CO 80203

\

March 2,2018
Tess Reyes
2805 Farview Drive
Fort Collins, CO 80524
RE:

Recommendation to Approve with Conditions a 112c Application with Objections,
Loveland Ready-Mix Concrete, Inc., Knox Pit, File No. M-2017-036

Dear Party and/or Interested Person:
The Division of Reclamation, Mining and Safety (Division) hereby issues its recommendation for
approval with conditions of the 112c application for the Knox Pit, File No. M-2017-036, submitted by
Loveland Ready-Mix Concrete, Inc. A copy of the Division’s rationale for its recommendation is
enclosed for your review. The Division’s recommendation is to the Colorado Mined Land Reclamation
Board (Board). The formal Board hearing for consideration of this matter is scheduled to occur during
the March 21 and 22,2018 Board meeting, at 1313 Sherman Street, Room 318, Denver, Colorado,
beginning at 9:00 a.m., or as soon thereafter as the issue may be considered. Pursuant to Rule 2.8.1(1) of
the Mineral Rules and Regulations of the Colorado Mined Land Reclamation Board for the Extraction of
Construction Materials (the Rules), any party who does not attend the Board hearing forfeits its party
status and all associated rights and privileges. A live audio broadcast of the formal hearing can be found
at the Division’s website at http://mining.state.co.us/Pages/Home.aspx.
Pursuant to Rule 2.7.3(4), any party who does not attend the Pre-hearing Conference forfeits its party
status and all associated rights and privileges, unless such party provides a fully executed proxy
authorization form to the Pre-hearing Conference Officer and the party’s authorized representative is
present. The Pre-hearing Conference is scheduled to occur on March 8,2018, at the Larimer County
Commissioners office at 200 West Oak, Suite 2200, Fort Collins, CO 80521 in the “Carter Lake/Boyed
Lake Hearing Room”, beginning at 10:00 a.m. and terminating at or before 2:00 p.m.
If you have any questions feel free to contact me at (303) 866-3567, extension 8120.
Sincerely,

vn
Jared Ebert
Environmental Protection Specialist III
Enclosure:

Rationale for Recommendation

APPENDIX-F-/4
lOi.
1313 Sherman Street, Room 215, Denver, CO 80203 P 303.866.3567 F 303.832.8106 http://mining.state.co.us
John W. Hickenlooper, Governor ] Robert RandaU, Executive Director \ Virginia Brannon, Director

/*/
, i

&{

>■

O

u2

>

ft

rL •

>

<3^

*d
*d

z

w

7^
<D

3

2

d
hH

3
ri

5xd

>

iT*

c

>■

5-t 4
i^>
5 2> 9

=>

a ,'c •■.

O

: :r :.

§.

QP

.v.> .i

1

-»'.
*>*

.®

§

n

S4

21

S

Ss

*

1

r)

«

IIII

so

i

*■■*■:

»
f
»

-o

^3

t3

I

i-

I O *x)

T3

I

2

l

f

w

Sf
•4|
i

|*

I

tffc

sif
a. Jj
■ c

mmm

iino

■m UW*UU&*iWlM

HffjfM
.Si

ff£

feHfatedfr^,

sir ST

iiifigli T iSlWSiPHf *S 1 o Slsi^#»;s m.

iff3
fit a°°
IB P&NK?*

! 1 p ft f #ii*i pife

■:*5

ffiSff
? ? 5«f i 6

5

a

*■

'•

*Sij4l#Ns°
®2?f
m

0

m

• j

*

-y

:■■

3<m
: Illlliltfit fpm
flip i l«i|l!l® I

s ; Itiidi
ml iBa- MW
I'l iiii:
&

-.s'

SlfiifSfffij
«g| m*l i.
lifcJs*-f* i
i2o ifmf| ? I
&T. 11

* li - ■
it If#
HI!

J

■ -t

o

•*s ttiin

ffNlt
Sg I feu!

IO

is" ns!
Si
*8
■*5

0 *s|

8*

F !«
ffZJT
£

<■4

;
i
}
>
<

i!
i

l

{

ooao Ml
II I!lWl!i??ll!f ? m a*
§• i I |
qa 5 fiililHfSi i3

SL

&
!

P#1
i I iwMrnm
f r':t* §'§ it!
liSllpi! SiiSiiMflsiis

1

«r

*•

• •15• rI m ; msW I if
/ m§ igfl
i «s»
8

!

5»ls§pg5i.5??f8

ugvOV iV.>

Aifil f\>J

aawiavt do aaansvaax am ox
IWtt'U'SWCM
UOOpOJOt93
uintooo
*pJOOQ
uoiuxuopca PUOl P*U|W *W JO A0}OS
OUO >«U|U|W 'UOU91U01M& to U0|S1A(Q
out umu JOMtoj ^tqmmiJOAQfl ioooi jooa
AQ pcmippo AltOOtOAt WO 'MUO J0JJUIJ8
pUD'tpalQM MSMl 'U0tPtP«|J0i MOItlO
tm o* paw* tou •oo«| ooa iwouoa
9IUJ0UO39 JO (Opot jomopao Mn)OA AtJO
-aojd no uoott* 'tpodiv! w* ax^zu*
-00 10 WTK»4 TUpOi^XOt *»**»» «V9*W
•out4UMuuicQ -mi *• lot-sws -rao
to tuofqMJd am'japun put opu MOPid

-ucitmii
•qnd jmommmi out jot itop |toi «u Jit
•10 SADP J0PU9IO3 ((B)
UOt|( »JOUJ
tou wd oo:r AO Apps puo *0U|UIW 'uoit
•ouioisoa to uetciAia out aq poapooj m
tcnui puo fiuitMA U| oq (tnui ituoujtuoj
-pmitUdo
(HUflM^AOqOOVt JO *i«m®3 (JOd 'J«*JJS ;

MO ‘MTO -OWtO MPJWaj®

"Ill I
-S3

-UOW 10*0*

'is 10

"ts
•ecao?**!

Wl •Jimp**
apuoujwtai

•m

DU?
-1011

«UJOtM

-OU-MJgH

nmo Atwnoo jmumoi «iu»* 'Afsem

•?S!

Mutano 04 aout 0(00 uotipoo OAtPPOt
puo uouoixuo*uj jouohjppv 'jojjqog 3*!i
•piuA puo oSuoj si puoj Kitioatn orntfl*
posodOJd «u *0OX *aow <1 uotPtdum

oioqojddi

“W
uSksstckshs
•OIW 'uottoumpsa to UOffJAia «41 UKUt

069CV!

uais

svoxj

IJpUXLH '

loupu

io opp pMOOOJd out puo 'll« 'itJdv
O iuoumououiuioo p «iflp pnowjd «u

UOfPIJOW 0UJMd'W TS*« ®9»*®l*
'UPON • dHI***01
UOtPOS JOOU •» p
|»4000) •( puo'ltd ^U)t out « tMHMO Cl
MiUJpwodOJd «a - tmmm aoipaits
. HM3puoHOOJpa«U JOtPVUOUOUl
-op*a puoi opojoko out jo cuopiaojo
jopun pjoos uoitoumoa* 0uo-\ otuw
opajoioo «4t ««(<« MC0-4M8-IV#} 4JUJ
•j«d uoitawoiMU uouojooo «io|jojow
uoiprutsuoD (sit) jopmm o JOt ugi
-oojtddo uo pom *»M 1011-499 (044) '(£VM
OQOJOtOO • pUOtOAOl '•Pd OOMUION
rt9 !-0U| >0(00003 XIWMPDOB pUBpMl

■aiiON sntnd
41(2X1X100
uaepojoro
U4C9VQOO
MOO MO
uonpiea uuapo'
sao '40t-ie-icuoH
•mc 0( uuotuoo ptnoyt uqop p m»u
-ot»(8 pootJOA ‘mumtm poo JMtUAOd
IOUU JO* (0* OOP OMi 01 M(jd fltrifPO
pod .jo v*o a*o «a otto *upp

gone on* (tnui poxiuen ciui ummj :M|;

no s

UOBKUO!

pounti
Atunoa _
[«opoiJOI
o mu tt

poeuo«»:

09
>

IHOPOM
opojop3'

•CMO nuiop OUJABM 8UUB P UOKJOd W
-pO|OJd pooilioa dSMQ to KOMOttfl
IJOJA M0J3 l!»Od 041 jo* •»» >wspru(i
-uo3 ifl uw» woujotuot puo at tooui
■Aoa JOU{* <(OUI /(fH OpOJOtOO tutltoy
*»d (0 AID »41

. J ‘UTSi ■?

<rac

QNV lNSWAVd IVNId dO 33I10N

3tptOJOUOPM^
uowwoxuwu&JBaicditjpMPJlijn^
K3peia|oo«HL<uopWd|P*Pl«BB

J

2Si3u«»joa»"mvmmSBA
on

vom
***** ******2%
io «kX»
nu
99U‘

l

6061-t^-<U6Ste6©il

ooo

i

U)

«

:%

/

sat

r.vi •.

j

I
» MMVMinfaownootiQj unoiMopMioo aoz'Si-wqouo'^P&inm ^

ATsasaaSgs
«>nos

mm & fiMpduyo *><uo*g mit

iMtuieouDw nod^rn

_________^IWMOJd

e

UK 61' El 'Stao BE 4d»$
ODOPOJOJOD
2Zl6Cr«000

uoitouiD1p«a pum pmivv 9IU j»2SS
puo Suiviiw 'uououiomm to uonuin

ffasKaaBsssasi
jji»5!pSSB.'iagB?agSg
3p«~sss,T~,?!5;,as — ‘Tni

i

-«.sasris

^f^WdauwapITftKlSf^

op'W*"*:

issssrswawSS fjP
,m"s3SS£33' ^
POUiOU-OAOQQ OIM JO 'tU||[03 JJCM^IIKMJC

«^ass?8w^aS
■ifisFss&cS
*1 AOW «*D|».UO|SI3«p MMeiUOl

m

I

P04O30I S, PUD *«d TO* £*?»£&££ pta
m

9W!^P-.^°DJC
• «W«lo“S5 l*g 'BO HE
U01POJ4X3 M44 joj 43V uauow
*OP03 PUOl OPOJOtO) «4 40 tUOttlAOId
JOPUA p«os uorwuop^f pua?Mww
OPOJOI03 0(4 44IM (»<wmuu

«■! ana

•JSd uomowopo* iicSSSr

-m

***
(Ott) 'KS»
... OPOJOWD PUDfOA(T| ’'PH BfUMNIMMi
m « »U| '0WJ3U03 X[WhApo»a puojatoi

HM
‘JOt
•*«*
0(40

^2»w>wjfl^5&o3SS 3
93U0N anerid

«/a*

tWC '9t 'Vi po

uoopaioioo
zmz»tooo

*

nproimsoiojtMona-OJirw

••iiouia
KSitfrtiu
rwjd

;tj:
"*■

55 -Wit*

Sisom
•iOf

oaoouroa *01
<M!SJ0A)Ufl 6404S 0pOJ0|03

5J

UK JOqopoTf I ****
suo
^4iWVA4,«joAIun'Va?vWffl ffl
w*o» »xjw -oS
:ouion

I
I

w

a

©

XI

»5 *69CV*PS‘

^jo-^^jafsaa 3fcS H3UJ
1 ssf
omej JowpBjaDjojjod^wSmiosre

►

Alt

^sjarasaiSSss i,.

I

S.J10 /Y

551 “ais<w«,*s«ss«rt»
| ^-TsiwrawsrapHaH
‘•^.■>.-40^ jc(3oi

1

I

noA jqneap JS9Q

S|aaij/\A i
MHoiuo»fiv

■rggSEaET
«rrjvr,r,£E5*S
Nvoavaon
S*imo3i8oJ

Mg paj0MO<J

sajus o6i?ji.*o </\>

•/“spgp X^ogM^iau
1

>

p^a>|jB|/\|
sai«f«n»eD

SQ3IJ1SSW
"■«l~»W>wm«OU0s WD-uwpuopo MM tl J*w>o’topunu. »

i

X

1

►

IN THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF
COLORADO

t+D CIJ0 COV
i

Civil Action No. 18-CV-3115-PAB-STV
PEDRO REYES,
Plaintiff,

v.
i

JEFF JENSEN,
GARY GERRARD, and
LARIMER COUNTY COMMUNITY PLANNING DEPARTMENT,
Defendants.

i

SCHEDULING ORDER
1. DATE OF CONFERENCE
AND APPEARANCES OF COUNSEL AND PRO SE
PARTIES
lProvide the date of the conference and the names, addresses, and telephone
numbers of counsel for each party and each pro se party. Identify by name the party
represented by each counsel.]
For Plaintiff: Plaintiff is unrepresented by Legal Counsel
For Defendants:
Jeannine Haag, Reg. No. 11995
David Ayraud, Reg. No. 28530
Larimer County Attorney’s Office
224 Canyon Ave., Suite 200
Fort Collins, CO 80521
(970)498-7450
JeartninehaaQ@iarimer.orQ
davraud@ianmer.ora

i

APPENDIX-H-i
I

2. STATEMBfTOF
JURISDICTION
jBovftfe a concise statement ofthe Stasis lixsubject matterjurisMionvrifo
appropriate stehstny citations ffjurisrScthn is denied, give the specific mason forthe
denial.]
Jurisdiction is proper in this Court pursuant to 28 U.S.C. $1331 because
Plaintiff has brought claims under the federal Americans with Disabilities Act and
under 42 U.S.C. §1983. AH of the events that give rise to the cause of action stated
herein occurred within the District of Colorado.

3. STATEMENT OF CLAMS AND
DEFENSES
jRoukteconrtestetemente ofat claims ordefenses. Each party, hS&rtofformaf
or rcfemmf Uhnovwy undertaken fats fart should fefce special care to oSminate frivolous
•r/V'frrs or ck-or&r.. ?-;-± R. O’/ P 11 end 16(c)(2)(A)- Do not summarize the pleadings.
Statements such as defendant denies the material aBagattons ofthe oompSaoriT am not
oggaptebte]
Platntiff(s): Pedro Reyes
b.

Defendants):

Larimer County Community Planning& Development
Jeff Jensen
Gary Gerrard
Defendant, answer or response to the Complaint is due June 10,2019. Defendants
arc reriiinuing & investigate the matters that are the subject of the Complaint but
anticipate filing a Motion to Oismiss/Motion for Summary Judgment. Defendants deny
PiatnUfi's disabilities, if any. prevented him from soeetrino at the rrr.nnty pin/winr*
Commission hearing. Defeixianis deny Knowieooc ms? rmwtu \y-^ ak?
Defendant?? deny thtrt PJninHff rrjmwwfed ?.ny
Defenddnfe allowed
T
ot
P’
rif
»i
Jf;
-Ki
O'-'ti'.HivAkj'.'
G-A
iTi.
5-3 «
i:-;-M
Defend;** rfs deny ihey violated
tire Americans with Disabilities Act Defendants are qualrfiedfy immune from Plaintiffs
claims. The Planning Commission is not a legal entity capable of suing or being sued
Pfalnttff has failed to exhaust his administrative remedies.
j.

*-•:

c.

Giher Faroes:

APPENDK-H--2

\

Case l:18-cv-03115-STV Document 41-1 Filed 05/23/19 USDC Colorado Page 3 of 14

N/A
4. UNDISPUTED
FACTS
The following facts are undisputed:
QA/hen the parties have the Ruie 26$ meeting, they should make a good-faith
attempt to ctetemihe which facts are not in dispute.]
The Planning Commission held a public hearing on August 15,2018 concerning the
Special Review application for a project commonly referred to as the Laporte Gravel
Pit.
Plaintiff was present in person at the hearing.
Members of the public who wished to speak at the hearing placed their names on a
sign-up sheet at the time they entered the hearing room.
Plaintiffs name was on the sign-up sheet.

DISPUTED STATEMENTS:
-

The sign-up sheet did not ask if any speaker had a disability that needed to
be accommodated
- My name was removed from the official record of the minutes of the
T.aPorte Gravel Pit hearing.
The Chair of the Planning Commission announced prior to taking public testimony,
that each person on the list was allowed four minutes to speak; that time could not be
consolidated by persons and that persons could not defer their time to others to
increase their time beyond four minutes.

DISPUTED STATEMENTS:
- Chairman Jensen said each speaker only had 2 minutes - NOT
4 minutes" to speak.
- Chairman Jensen did not say at any time before, during or after the
hearing, that time could not be consolidated.
- Chairman Jensen did not say at any time before, during or after the
hearing, that persons could not defer their time to others to increase their

APPENDIX-H -3

I

DENIAL OF EQUAL PROTECTION 14th AMENDMENT & UNEQUAL APPLICATION OF THE LAW
ILLUSTRATED
Rule 6.4.8 (2) required the
Colorado Parks and Wildlife
to render Agency comment
before Nov. 8,2017. CPW
rendered comment March 1,
2018. The BLM refused to
accept Plaintiff 1- day late
comment letter but accepted
CPW 90-day late Agency
comment.

C.R.S.S 34-32.5-112 (9) (c)

s

The CPW itwice! firmly denied
being LATE with Agency
comment.

I

CPW insists Agency comment
was timely.

Required that: ALL 3 groups of
owners of record be sent MAILED
notice of the mining application
and public comment period IMMEDIATELY

The Division makes no mention
why CPW Agency comment was
90 days late or whether the
Division sent the CPW Notice.

Group A
Group C
Owners of record
of surface mineral
rights

The Division and the
Board had been apprised
that the Plaintiff and his
wife are individuals with
recognized disabilities,
(appendix L)

Group B

Owners of record
designated by the Office
who may be affected by the
mining operation including
Plaintiff and 12 other
owners of record denied
Notice

Owners of record within
200 feet of affected land

Denial of Due notice = Violation of due process

1. The Office, the Board and the Division relied SOLELY on newspaper Notice * even though C.R.S. $ 34-32.5112 (9) (c) required the Office to ensure; that the Mining Applicant would immediately send Notice of the
proposed mine by mail, specifically to ALL 3 groups of owners of record
2. The newspaper Notice(s) stating deadline of the public comment period is VAGUE. The Notice did not
specify a deadline. Notice left room for error in interpretation of exact public comment period deadline. The
vague Notice infringed on due-process & equal protection of the Fourteenth Amendment, shown by twelve
(12) individuals, also denied Notice of the mining application and public comment period. The Colorado Parks
and Wildlife was similarly denied Notice by the Office and the Division. (Pis. see Appendix F & G)
3. Instead of immediately designating owners of record in Group C, before the Nov. 8,2017 public comment
period deadline, so as to apprise Group C of the public comment period, and enable them to respond with
public comment, the Office, enforced Rule 1.6.2 (1) (f) (g) to defer designating the said owners until the end
of the Review process on January 20,2018, almost 90 days after public comment period had already ended.
4. The Office, the Board and the Division, did not apprise the Plaintiff, of the Office's decision to recognize, or
deny the Plaintiff and others, as affected persons of the proposed mine.

A

t

r

I
I

TITLE 34
MINERAL RESOURCES
ARTICLE 323
Colorado Land Reclamation Act for the
Extraction of Construction Materials
34-32.5-101.
34-32.5-102.
34-32.5-103.
34-32.5-104.
34-32.5-105.
34-32.5-106.
34-32.5-107.
34-323-108.
34-323-109.
34-323-110.
34-323-111.
34-323-112.
34-323-113.
34-323-114.
34-323-115.

Short title.
Legislative declaration.
Definitions.
Administration.
Office of mined land
reclamation - mined land
reclamation board.
Duties of board.
Powers of board.
Rules.
Reclamation permit required
- existing permits.
Existing limited impact
operations - expedited
process.
Special permits - fifteencalendar-day processing.
Application for reclamation
permit • changes in permits fees - notice.
Exploration notice reclamation requirements.
Protests - petition for hearing.
Action by board - appeals.

34-323-116. Duties of operatorsreclamation plans.
34-32.5-117. Warranties ofperformance warranties of financial
responsibility - release of
warranties.
34-32.5-118. Forfeiture of financial
warranties.
34-32.5-119. Operators - succession.
34-32.5-120. Permit refused - operator in
default
34-32.5-121. Entry upon lands for
inspection - reporting certain
conditions.
34-32.5-122. Fees, civil penalties, and
forfeitures - deposit
34-32.5-123. Operating without a permit penalty.
34-32.5-124. Failure to comply with
conditions oforder, permit,
or regulation.
34-32.5-125. Mined land reclamation fund
-fees.

34-323-101. Short title. This article shall be known and may be cited as the "Colorado
Land Reclamation Act for the Extraction of Construction Materials”.
34-323-102. Legislative declaration. (1) The general assembly hereby declares that the
extraction of construction materials for government and private enterprise and the reclamation of
land affected by such extraction are necessary and proper activities that are compatible. It is the
intent of tire general assembly to foster and encourage the development of an economically sound
and stable extraction materials industry and to encourage the orderly development of the state's
natural resources while requiring those persons involved in extraction operations to reclaim land
affected so that it may be put to a use beneficial to the people of this state. It is the further intent
of the general assembly to conserve natural resources, aid in the protection of wildlife and

appendix!^

(I) The name and address of the general office and the local address or addresses of the
operator;
(II) The name and address of the owner of the surface of the affected land;
(III) The name and address of the owner of the subsurface rights of the affected land;
(IV) The approximate site ofthe affected land;
(V) Information sufficient to describe or identify the type of operation proposed and how
it will be conducted;
(VI) The measures to be taken to comply with applicable provisions of section 34-32.5116;

(VII) The terms of the governmental contract which make a special permit necessary;
(VIU) Evidence of any financial warranty required under the governmental contract; and
(IX) A statement that the operator has applied for necessary local government approval.
(3) If the board determines that any of the affected land lies within the boundaries of
lands described in section 34-323-115 (4) (f), such land shall be withdrawn from the operation.
(4) At any time after the completion of reclamation the operator may notify the board
that the land or a portion of the land has been reclaimed. Upon receipt of such notice the board
shall cause the land to be inspected, and, within sixty days after the board finds the reclamation
to be satisfactory and in accordance with the plan agreed upon, the board stall release the
performance and financial warranties or the appropriate portions of such warranties.
(5) Special permits dull be dented or issued by the board within fifteen calendar days
after the date an application is submitted. Approval shall depend on the application, map, fee,
performance warranty, and financial warranty being in compliance with this section. If action on
an application is not completed within such fifteen-day period, the permit shall be approved and
promptly issued upon presentation by the applicant of a financial warranty in the amount of two
thousand five hundred dollars per affected acre or such other amount as may be specified by rule
of the board.
(6) A governmental subdivision shall be exempt from subparagraphs (U) and (ID) of
paragraph (b) of subsection (2) of this section when such subdivision, acting as an operator,
requires a permit solely to mine construction materials for the construction of public roads under
a contract with the department of transportation or otherwise.
34-32^-112. Application for reefaunatkm permit - changes In permits - fees notice. (1) (a) To obtain a reclamation permit, an operator shall apply in writing to the board or
the office on forms provided by the board. If approved, the reclamation permit dull authorize the
operator to engage in the mining operation described in the application upon the affected land for
the life of the mine.
(b) Each application shall consist of:
(I) Five copies of the application;
(D) A reclamation plan submitted with each copy ofthe application;
(HI) An accurate map of the affected land submitted with each copy of the application;
and
(IV) The application fee specified in section 34-32.5-125.
(c) Each application form shall include:
(I) The legal description and area of affected land;
(D) The name ofthe owner of the surface ofthe area of affected land;
(Ul) The name ofthe owner of the substance to be mined;
(IV) The source of the applicant's legal right to enter and initiate a mining operation on
the affected land;
-8CertifiedCopy
Colorado Revised Statutes 2015

APPENDIX'?-?

(V) The address and telephone number of the general office and the local address and
telephone number of the applicant;
(VI) Information sufficient to describe or identify the type of mining operation proposed
and how the operator intends to conduct such operation;
(VII) The size ofthe area to be worked at any one time;
(VIII) A timetable estimating the periods required for various stages of the mining
operation. The operator shall not be required to meet the timetable, nor shall the timetable be
subject to independent review by the board or the office.
(2) The reclamation plan shall include provisions for, or a satisfactory explanation of, all
general requirements for the type of reclamation proposed to be implemented by the operator.
Reclamation shall be required on all the affected land. The reclamation plan shall include:
(a) A description of the types of reclamation the operator proposes to achieve in the
reclamation of the affected land, why each was chosen, and the amount of acreage accorded to
each;
(b) A description of how the reclamation plan will be implemented to meet section 34*
32.5-U6;
(c) A proposed plan or schedule indicating when and how reclamation will be
implemented, and such plan or schedule shall not be tied to a specific date but shall be tied to the
implementation or completion of different stages of the mining operation;
(d) A map showing the proposed affected lands by all phases of the total scope of the
mining operation. Such map shall:
(0 Indicate the expected physical appearance of the area of the affected land, correlated
to the proposed timetables required by subparagraph (VIII) of paragraph (c) of subsection (1) of
this section and the plan or schedule required by paragraph (c) ofthis subsection (2); and
(II) Portray the proposed final land use for each portion of the affected lands.
(3) The map of tire affected lands shall:
(a) Be made by a professional land surveyor, professional engineer, or other qualified
person;
(b) Identify the area that corresponds with the application;
(c) Show adjoining surface owners of record;
(d) Be made to a scale of not less than one hundred feet to the inch and not more than six
hundred sixty feet to the inch;
(e) Show the name and location of all creeks, roads, buildings, oil and gas wells and
lines, and power and communication lines within the area of the affected land and within two
hundred feet of all boundaries of such area;
(0 Show the total area to be involved in the operation, including the area to be mined and
the area of affected land;
(g) Show the topography of the area using contour lines of sufficient detail to portray the
direction and rate of slope of the affected land;
(h) Indicate on a map or by a statement the general type, thickness, and distribution of
soil over the area in question, including the affected land;
(i) Show the type of vegetation covering the affected land.
(4) The reclamation plan shall also show by statement or map the depth and thickness of
the deposit to be mined and the thickness and type of the overburden to be removed, and where
overburden is stockpiled, the approximate volumes stockpiled.
(5) The application fee specified in section 34-32.5-125 shall be paid.
(6) Reclamation shall be completed within five years after the date die operator advises
the board that each phase of construction material extraction has been completed, as provided in
-9Certified Copy
Colorado Revised Statutes 2015

APPENDIX-2' 4

section 34-323-116 (4) (q). Such five-year period may be extended by the board upon a finding
that additional time is necessaiy for the completion ofthe terms ofthe reclamation plan.
(7) (a) An operator may, within the term of a reclamation permit, apply to the board or
the office for a reclamation permit amendment to increase the acreage to be affected or otherwise
revise the reclamation plan. An application for the amendment of a reclamation permit shall be
reviewed by the board or office in the same maimer as an application for a new reclamation
permit The operator shall also submit such supplemental performance and financial warranties
as may be required by the board or office for the additional acreage. If the area described in the
original application is reduced, then the amount of the financial warranty shall be reduced
proportionately. When applicable, the operator shall file with the application for amendment a
map and an application with the same content as required for an original application.
(b) An amended application shall be accompanied by the foe specified in section 34323-125.
(c) When an operator files a notice of temporary cessation pursuant to section 34-32.5103 (11) (b), such notice shall be accompanied by the fee specified in section 34-323-125.
(8) The information provided in an application for a reclamation permit that relates to the
location, size, or nature of the deposit or information required by subsection (4) of this section
and that is marked confidential by the operator shall be protected by the board and the office as
confidential information. Such information shall not be a matter of public record in the absence
of a written release from the operator or until the mining operation has been terminated A person
who willfully and knowingly violates this subsection (8) or section 34-323-113 (3) commits a
class 2 misdemeanor and shall be punished as provided in section 18-1.3-501, C.R3.
(9) (8) Upon the filing of an application for a reclamation permit, the applicant shall
place a copy of such application for public inspection at the office of the board and the office of
the county clerk and recorder of the county in which the affected land is located Such copy shall
not include the information exempted by subsection (8) of this section. The copy placed at the
office of the county clerk and recorder shall not be recorded but shall be retained until such
application las been heard by the board or the office and shall be available for inspection during
such period. At the end of such period, the copy may be reclaimed or destroyed by the applicant
(b) The applicant shall cause notice of the filing of the application to be published in a
newspaper of general circulation m the area of the proposed mining operation once a week for
four consecutive weeks, commencing not more than ten days after the filing of such application
with the board or office. Such notice shall contain information about the:
(I) Identity of the applicant;
(II) Location of the proposed mining operation, if such information does not violate
subsection (8) of this section;
(III) Proposed dates of commencement and completion ofthe operation;
(IV) Proposed future use ofthe affected land;
(V) Location where additional information about the operation may be obtained;
^<V1) location and final date for filing objections with the board or the office.
(c) The applicant shall mail a copy of such notice immediately after fust publication to
all owners of record of the surface and mineral rights of the affected land, the owners of record of
all land surface within two hundred feet of the affected lands, and any other owners of record
designated by the board who nay be affected by the proposerUmning mention. Proof of such
notice and mailing, such as certified mail with return receipt requested, wnere possible, shall be
provided to the board or the office and shall become part of tfre application.
34423-113. Exploration notice - reclamation requirements. (1) A person desiring to .
-10-

Certified Copy
Colorado Revised Statutes 201S

APPENDIX-J-5

Page 18
Construction Materials Rule
Recorder's office and should send comments prior to the end of the public
comment period to the Colorado Mined Land Reclamation Office, and state the
Office’s address, as given on the cover of these Rules. For any class of 110 Limited
Impact or 111 Special Operation, the Applicant need only post notice at the location
of the proposed access to the site. After having posted such notice, failure by an
Applicant to maintain such notice (sign) shall not constitute just cause to deny
approval of the application. At the time the application is filed with the Office, the
Applicant shall provide a signed affidavit that such notices (signs) were posted
according to the provisions of this Rule.
112(9Xa)

(c)

Prior to submitting the application to the Office and/or prior to submitting
amendments to the application, place for public review a copy of the application
and amendments, without confidential items, with the Clerk or Recorder of toe
county or counties in which the affected land is located and provide proof as
required by Rule 6.3.9 for 110 Limited Impact and 111 Special Operations and Rule
6.4.18 for 112 Reclamation Operations.

11CX5KC)

(d)

Except for 111 Special Operation Permit applications, within ten (10) days after the
Office notifies the Applicant that toe application is considered filed, publish a public
notice in a newspaper of general circulation in toe locality of toe proposed mining
operation containing:

(e)

110<5Xc)
112(9Mc)

-M
CA

0)

name and address of Applicant;

(H)

location of toe proposed mining operation by section, township and range
and street address where applicable;

(iii)

proposed dates of commencement and completion of the operation;

(iv)

proposed future use of affected land;

(v)

location where additional information on toe operation may be obtained;
and

(vi)

location and final date for submitting statements of support or objections
with the Office.

^Except)for 111 Special Operation Permit applications^ the applicant shall mail or
personally serve a copy of toe notice in Rule 1.6.2(1 )(d) immediately after toe first
publication to
'i

(i),,,

^ l<y^

•

..j' y

(ii)

u
110(5Xc)
112(9Hc)

all Owners of Record of the surface and mineral rights of toe affected land;
and

(f)

toe Owners of Record of all land surface within 200 feet of toe boundary
of toe affected lands.

As soon as designated by the Office, mail a copy of the Notice provided for in Rule
1~6.2(1 Xd) to any other Owners of Record who might be affected by toe proposed

APPENDIX- ]: L>

X*-

■9'

Construction Materials Rule 1
mining operation. The Office shall designate such owners, if any, during its
adequacy review "process. (Not applicable to 111 Special Operation^* Permit
applications.)
11W5Wc)
1120MC)
,
..........
*
^r/i

v

\} yZit

(g)
r Prior to Office consideration of the application, submit proof of publication and
uJ.j ^
proof otkn required notices *^root of Noticemiay 6e by submitting return receipts
^
ft-] ^
^ 1 <^>4^iTihecKmaiiing^LJtf Pro°t of personal service. An application will be
", /. ■iff')
considered file^by {tfeOffice^when the Applicant supplies the proper application
i ,-J^Jr/) iSi it
feiTd Bigfiea affidayrttKaraif notices as provided tor in Kuie 1.6.2(1 Kb) have been
a L-OUy
n pfiBWT, andthe application m6ets the Sppllcabie requirements of Rules 1.4.1,
or the application, proof
i* r/
^AX'T:4.3;T.4:4rbFi:4.5r^
l§)
of notice provided farin'Rules 1.6.2(1Xd), <e), an#f)Triust be received by the
Office.

110(5Xc)

-------

(2)

The copy of the permit application, adequacy responses of the applicant application
revisions, and any permit amendment applications placed at the office of the County Clerk
or Recorder shall not be recorded, but shall be retained until final agency action, as defined
at C.R.S. 24-4-105(14), on said application has occurred, and be available for inspection
during such period. At the end of such period, such application may be reclaimed by the
Applicant or destroyed. Applicants should contact the Office prior to removal of the copy of
the application materials placed with the office of the County Clerk or Recorder in order to
ensure compliance with C.R.S. 24-4-105(14).

1.6.3

Specific Provisions >110 Limited Impact Permit Applications

(1)

The following Notice Rules and the notice requirements of Rule 1.6.2 also apply to
applications for new 110 Limited Impact Permits.

(2)

The Office shall give written notice, by mailing, of the decision date for the application.

(3)

The Public Notice, as required in Rule 1.6.2(1 )(d), shall be published once.

1.6.4

Specific Provisions -111 Special Operations Permit Application

112(9Xc>

The Office shall, upon filing, give notice by an expeditious method, of the decision date of the
application.
1.6.5

Specific Provisions -112 Reclamation Permit Application

(1)

The Public Notice, as required in Rule 1.6.2(1 )(d) shall be published four (4) times, once a
week for four (4) consecutive weeks.

(2)

Within ten (10) working days after the last publication or as soon thereafter as proof has
been obtained, the Applicant shall mail proof of the publication required by Rule 1.6.2(1 Xd)
to the Office. Proof of publication may consist of either a copy of the last newspaper
publication, to include the date published, or a notarized statement from the paper. An
application may not be approved until such proof has been obtained.

APPENDIX-]/

\ ,
I

|0
** .

X

cF

Page 101
Construction Materials Rule 6
6.4.8

EXHIBIT H - Wildlife Information

(D

In developing the wildlife information, the Operator/Applicant may wish to contact the local
wildlife conservation officer. The Operator/Applicant shall include in this Exhibit, a
description of the game and non-game resources on and in the vicinity of the application
area, including:
(a)

a description of the significant wildlife resources on the affected land;

(b)

seasonal use of the area;

(c)

the presence and estimated population of threatened or endangered species from
either federal or state lists; and
a description of the general effect during and after the proposed operation on the
existing wildlife of the area, including but not limited to temporary and permanent
loss of food and habitat interference with migratory routes, and the general effect
on the wildlife from increased human activity, including noise.

(VflUC u*'-

\P o-

(2)

The application may be reviewed and commented upon by Colorado Parks and Wildlife
(CPW). If CPW has comments, they must be provided prior to the end of the public
comment period specified in Rule 1.7.1(2)(a) to be considered by the Board and Office.

6.4.9

EXHIBIT I - Soils Information

(1)

In consultation with the Natural Resources Conservation Service (NRCS) or other qualified
person, the Operator/Applicant shall indicate on a map (in Exhibit C) or by a statement the
general type, thickness and distribution of soil over the affected land. Such description will
address suitability of topsoil (or other material) for establishment and maintenance of plant
growth. If necessary, at its discretion, foe Board may require additional information on soils
or other growth media to be stockpiled and used in revegetation.

6.4.10 EXHIBIT J - Vegetation Information

(D

The Operator/Applicant shall include in this Exhibit a narrative of the following Items:
(a)

descriptions of present vegetation types, which include quantitative estimates of
cover and height for the principal species in each life-form represented (i.e., trees,
tall shrubs, low shrubs, grasses, forbs);

(b)

the relationship of present vegetation types to soil types, or alternatively, the
information may be presented on a map; and

(c)

estimates of average annual production for hay meadows and croplands, and
carrying capacity for range lands on or in the vicinity of the affected land, if the
choice of reclamation is for range or agriculture.

APPENDIX]#

34-32.5-112. Application for reclamation permit - changes In permits - foes notice. (1) (a) To obtain a reclamation permit, an operator shall apply in writing to the board or
the office on forms provided by the board. If approved, the reclamation permit shall authorize the
operator to engage in the mining operation described in the application upon the affected land for
the life of the mine.
(b) Each application shall consist of:
(I) Five copies of the application;
(II) A reclamation plan submitted with each copy of the application;
(III) An accurate map of the affected land submitted with each copy of the application;
and
(IV) The application fee specified in section 34-32.5-125.
(c) Each application form shall include:
(1) The legal description and area of affected land;
(11) The name of the owner of the surface of the area of affected land;
(HI) The name of the owner of the substance to be mined;
(IV) The source of the applicant's legal right to enter and initiate a mining operation on
the affected land;
(V) The address and telephone number of the general office and the local address and
telephone number ofthe applicant;
(VI) Information sufficient to describe or identify the type of mining operation proposed
and how the operator intends to conduct such operation;
(VII) The size of the area to be worked at any one time;
(VH1) A timetable estimating the periods required for various stages of the mining
operation. The operator shall not be required to meet the timetable, nor shall the timetable be
subject to independent review by the board or the office.
(2) The reclamation plan shall include provisions for, or a satisfactory explanation of, all
general requirements for the type of reclamation proposed to be implemented by the operator.
Reclamation shall be required on all the affected land. The reclamation plan shall include:
(a) A description of the types of reclamation the operator proposes to achieve in the
reclamation of the affected land, why each was chosen, and the amount of acreage accorded to
each;
(b) A description of how the reclamation plan will be implemented to meet section 3432.5-116;
(c) A proposed plan or schedule indicating when and how reclamation will be
implemented, and such plan or schedule shall not be tied to a specific date but shall be tied to the
implementation or completion ofdifferent stages of the mining operation;
(d) A map showing the proposed affected lands by all phases of the total scope of the
mining operation. Such map shall:
(I) Indicate the expected physical appearance of the area of the affected land, correlated
to the proposed timetables required by subparagraph (VIII) of paragraph (c) of subsection (1) of
this section and the plan or schedule required by paragraph (c) of this subsection (2); and
(II) Portray the proposed final land use for each portion of the affected lands.
(3) The map of the affected lands shall:
Colorado Revised Statutes 2015

71

Uncertified Printout

APPENDIX -I-?

(a) Be made by a professional land surveyor, professional engineer, or olher qualified
person;
(b) Identify the area that corresponds with the application;
(c) Show adjoining surface owners of record;
(d) Be made to a scale of not less than one hundred feet to the inch and not more than six
hundred sixty feet to the inch;
(e) Show the name and location of all creeks, roads, buildings, oil and gas wells and
lines, and power and communication lines within the area of the affected land and within two
hundred feet of all boundaries of such area;
(0 Show the total area to be involved in the operation, including the area to be mined and
the area of affected land;
(g) Show the topography of the area using contour lines of sufficient detail to portray the
direction and rate ofslope of the affected land;
(h) Indicate on a map or by a statement the general type, thickness, and distribution of
soil over the area in question, including the affected land;
(i) Show the type of vegetation covering the affected land.
(4) The reclamation plan shall also show by statement or map the depth and thickness of
the deposit to be mined and the thickness and type of the overburden to be removed, and where
overburden is stockpiled, the approximate volumes stockpiled.
(5) The application fee specified in section 34-32.5-125 shall be paid.
(6) Reclamation shall be completed within five years after the date the operator advises
the board that each phase of construction material extraction has been completed, as provided in
section 34-32.5-116 (4) <q). Such five-year period may be extended by the board upon a finding
that additional time is necessary for the completion of the terms of the reclamation plan.
(7) (a) An operator may, within the term of a reclamation permit, apply to the board or
the office for a reclamation permit amendment to increase the acreage to be affected or otherwise
revise the reclamation plan. An application for the amendment of a reclamation permit shall be
reviewed by the board or office in the same manner as an application for a new reclamation
permit. The operator shall also submit such supplemental performance and financial warranties
as may be required by the board or office for the additional acreage. If the area described in the
original application is reduced, then the amount of the financial warranty shall be reduced
proportionately. When applicable, the operator shall file with the application for amendment a
map and an application with the same content as required for an original application.
(b) An amended application shall be accompanied by the fee specified in section 3432.5-125.
<c) When an operator files a notice of temporary cessation pursuant to section 34-32.5103 (11) (b), such notice shall be accompanied by tin: fee specified in section 34-32.5-125.
(8) The information provided in an application for a reclamation permit that relates to the
location, size, or nature of the deposit or information required by subsection (4) of this section
and that is marked confidential by the operator shall be protected by the board and the office as
confidential information. Such information shall not be a matter of public record in the absence
of a written release from the operator or until the mining operation has been terminated. A person
who willfully and knowingly violates this subsection (8) or section 34-32.5-113 (3) commits a
Colorado Revised Statutes 2015

72

Uncertified Printout

APPENDIX - J -/0

class 2 misdemeanor and shall be punished as provided in section 18-1.3-50! , C.R.S.
(9) (a) Upon the filing of an application for a reclamation permit, the applicant shall
place a copy of such application for public inspection at the office of the board and the office of
the county clerk and recorder of the county in which the affected land is located. Such copy shall
not include the information exempted by subsection (8) of this section. The copy placed at the
office of die county clerk and recorder shall not be recorded but shall be retained until such
application has been heard by the board or the office and shall be available for inspection during
such period. At the end of such period, the copy may be reclaimed or destroyed by the applicant.
(b) The applicant shall cause notice of the filing of the application to be published in a
newspaper of general circulation in the area of the proposed mining operation once a week for
four consecutive weeks, commencing not more than ten days after the filing of such application
with the board or office. Such notice shall contain information about the:
(I) Identity of the applicant;
(II) Location of the proposed mining operation, if such information does not violate
subsection (8) of this section;
(III) Proposed dates of commencement and completion of the operation;
(IV) Proposed future use of the affected land;
(V) Location where additional information about the operation may be obtained;
(VI) Location and final date for filing objections with the board or the office.
(c) The applicant dial] mail a copy of such notice immediately after fust publication to
all owners of record of the surface and mineral rights of the affected land, the owners of record of
all land surface within two hundred feet of the affected lands, and any other owners of record
designated by the board who may be affected by the proposed mining operation. Proof of such
notice and mailing, such as certified mail with return receipt requested, where possible, shall be
provided to the board or the office and shall become part of the application.

34-32.5-113. Exploration notice - reclamation requirements. (t) A person desiring to
conduct exploration shall, prior to entry upon the lands, file with the board a notice of intent to
conduct exploration operations on a form approved by the board. Such notice shall be
accompanied by the fee specified in section 34-32.5-125.
(2) The notice shall contain:
(a) The name of the person or organization doing the exploration;
(b) A statement that exploration will be conducted pursuant to the terms and conditions
listed on the approved form;
(e) A brief description of the type of operations that will be undertaken;
(d) A description of the lands to be explored, by township and range;
(e) An approximate dale of commencement of operations; and
(f) A description of the measures to be taken to reclaim affected lands, consistent with
section 34-32.5-116.
(3) All information provided to the board in a notice of intent to conduct exploration
shall be protected as confidential information by the board and shall not be a matter of public
record In the absence of a written release from the operator.
Colorado Revised Statutes 2015

73

Uncertified Printout

APPENDIX -I-11

DENIAL OF FAMILY MEMBERS AS INTERPRETERS TO LIMITED ENGLISH PROFICIENT
(LEP) INDIVIDUALS - DISCRIMINATION UNDER TITLE 43 PART 17 SUBPART A
Larimer County, ongoing administrative policy, of denying Family Member Interpreters, to
Limited English Proficient (LEP) participants identified with a protected class of individuals
belonging to a different race, color and national origin

i
Larimer County Planning Commission's discriminatory administrative practice of
denying interpreters to LEP participants, effects segregation, exclusion and
denial of benefits to LEP participants

i
Video and transcripts support that, the LEP/disabled Plaintiff, twice requested the arbiters
for permission, to be allowed to defer his time to his wife for her to effectively articulate
his protest of the proposed mine; but that the decision-makers denied affirmative action to
accommodate the request: even though denial of the Plaintiffs request for an interpreter
would result in denial of benefits and Plaintiffs exclusion from participating in the hearing.
The Planning Commissioners denied Plaintiff an interpreter even though the Plaintiffs
request merited affirmative action that was required by 43 C.F.R. § 17.3 (4) (ii).

1
Time stamp of the hearing (appendix M) shows that, Chairman Jensen's opening remarks, from 0.05 till
07:03:30, support that, Mr. Jensen gave no such announcement, prohibiting deferring of time to others
during the hearing. Therefore, facts speak for itself that, deferring time to others was not prohibited
during the public hearing, and Defendants had no just cause to prohibit the LEP Plaintiff from
designating his wife as his interpreter. Appendix A page 9, shows; Larimer County attributes action to
exclude Plaintiff from the hearing; to a Larimer Planning Commission policy that indiscriminately
prohibits deferring time to all - even to LEP individuals impaired by inability to effectively articulate in
English. Denial of free speech, exclusion from the hearing and denial of entity benefits to the LEP
evidences that the Larimer County action to prohibit deferring of time to the disabled and LEP
individuals; creates adverse disparate impact that is construed as discrimination under Title 43 Part 17
Subpart A

4

Line 11 page 2 of Sworn statement presented to Court by Senior Planner Robert Helmick; it is stated
that, 'no member of the public were allowed to defer their time to other members of the public at the
bearing'. This is false. Lines 4-11 of page 127 of Exhibit- M, clearly shows Mrs. West speaking her own
viewpoint on her husband's time. Mrs. West's repeated use of the word "I" while speaking her own
thoughts on her husband's time; infers that, Mrs. West was expressing her own comment, on time
deferred to her, by her husband, Mr. West and that the Chairman and vice-chairman permitted Mrs.
West to speak her own viewpoint on time deferred to her by Mr. West. The Chairman made no effort to
stop Mrs. West from expressing her own viewpoint on time deferred to her, by her spouse, Mr. West.
RECORDS SHOW THAT MT. & MRS. WEST WERE ESSENTIALLY PRIVILEGED TO DEFER TIME to each other
when no one else during the hearing was allowed to do so.

APPENDIX-112

Skip to main content

An official website of the United States government
TIIK t NITU) STATUS

DEPARTMENTJUSTICE

wLJf

archives

Search form

Search

•

About

•

Our Agency

•

Topics

•

News

•

Resources

•

Careers

•

Contact

You are here
Home » About DOJ » Office of Privacy and Civil Liberties » Privacy Act of 3.974 » Overview of
The Privacy Act of 1974 (2015 Edition}

appendix-J-1

This Is archived content from the U.S. Department of Justice website. The information here may
be outdated and links may no longer function. Please contact webmaster@usdoj.gov if you
have any questions about the archive site.
Overview of the Privacy Act of 1974

Conditions of Disclosure to Third Parties
A. The "No Disclosure Without Consent1' Rule
"No agency shall disclose any record which is contained in a system of records by any means of
communication to any person, or to another agency, except pursuant to a written request by,
or with the prior written consent of, the individual to whom the record pertains [subject to 12
exceptions]" 5U.S.C.§552a(b).

Comment:
Federal officials handling personal information are "bound by the Privacy Act not to disclose
any personal information and to take certain precautions to keep personal information
confidential." Big Ridge. Inc, v. Fed. Mine Safety & Health Review Common. 715 F.3d 631,650
(7th Cir. 2013). A "disclosure" can be by any means of communication - written, oral,
electronic, or mechanical. Sge 0MB Guidelines, 40 Fed. Reg. 28,948,28,953 (July 9,1975),
available at
http://www.whitehouse.gov/sites/default/fNes/omb/assets/omb/inforeg/implementation guid
elines.pdf; see also, e.g.. Speaker v. HHS Ctrs. for Disease Control & Prevention. 623 F.3d 1371,
1382 n.ll (11th Or. 2010) ("Numerous courts have held that the Privacy Act protects against
improper oral disclosures."); Jacobs v. Natl Drug Intelligence Ctr.. 423 F.3d 512,517-19 (5th Cir.
2005) (rejecting argument that "the [Privacy Act] only protects against the disclosure of a
physical document that is contained in a system of records" and holding that "damaging
information... taken from a protected record and inserted into a new document, which was
then disclosed without the plaintiff's consent," violated subsection (b) because "the new
document is also a protected record"); Orekova v. Moonev. 330 F.3d 1,6 (1st Cir. 2003) ("The

APPENDIX-iJ <2

Coales'Canons
NC Local Government Law
https://canons.sog.unc.edu

OIUNC
I

SCHOOL OF <GOVERNMENT

Coates' Canons Blog: 8houM a Local Government Be a H1PAA Hybrid Entity?

By AbneeVteR
Article: https://canons.sog. unc.edu/shoirid«4ocal^vcmmerti4>e^lpea-hybrW-«ritity/
IMs entry wn potnd on April», 2016 and is llsd wxter Agency A«nMetratfm, Aosney AdmMetration, ConfldMitWHy, Hsitth
Informslon A Records, Public HeeMt, tocM Service*
The federal HIPAA regulations apply directly to certain types of entities and indMduate, referred to as Covered entities"
and "business associates." These regulations govern standardization of electronic healthcare transactions and identifiers,
as wan as the privacy and security of health information. Depending on the services provided and the relationships that
exist, a local government may be a covered entity or e business associate that is subject to theta federal regulations.
If a local government concludes diet it a HIPAA covered entity, it may want to have only some of its functions, services, or
staff members comply with HIPAA. K may want to fimit the amount of training and compfiance duties, as wel as its KMxIty
exposure. Cm the local government do that? Why, yesl It can. But in ordsr to do so, it must taka affirmative stsps to
designate itself a "hybrid entity." This post briefly discusses how a local government can determine whether it is a covered
entity and explores the concept of hybrid entity designations, it does not provide any discussion of the other substantive
requirements of the HIPAA regulations, such as when use and diactoaure of protected health information is allowed. We
wifi save those discussions for another time.

Who or what tea covered entity?
There are three types of covered entities under HIPAA:
• health care clearinghouses,
• health plans, and
• health care providers who transmit any health information In electronic form in connection with a HIPAA-coversd
transaction.
See 42 U.S.C. 1320d-1 (applicebSty); 45 C.F.R. 160.103 (definition of “covered entity"). The US Department of Health and
Human Servicas davalopad a aaries of flowcharts to halp incfividuals and antitias dsdds whathar thay fill into ont of there
three categories.
Local governments most likely do not operate health care clearinghouses. These are organizations that help other entities
convert health information from a nonstandard format to a standard format (or the reveres). A local government may
contract with s health cere clearinghouse, but it most Beefy does not operate one within the govsmmerdsl entity.
A local government may operate a self-funded health plan that qualifies as HIPAA covered entity. The government may
contract with a tirird-party administrator to managa the plan, but the plan itself may be a component of the local
government If so, the local government would be the covered entity.
Many local governments, especially counties, ere HIPAA coveted entities because they offer services or have staff that (1)
meet the definition of "health care provide? under HIPAA anti#) trawnrit heritti tofomretion in electronic form in
connection wfth e mPAA-covsrsd transaction. For clarity, I w« rater to indivwuaie, services, or functions that meet both (1)
and (2) ee ‘covered health cere providers.”

How does a local government know If It Is a covered health cave provider?
In order to determine whether a local government is a covered health care provider, it is important to understand some of
the key HIPM definitions, most of vririch are found in 46 C.F.R. 160.103.

Copwn»tOaM)9*apwrt8choc<orGwiw»<etwUniww»qfWo<iCwol«».AlnoNiw»

A PPENDTX- K-1

Cosies' Canons
NC Local Government Low
https^/canons.sog .unc.edu

U UNC

SCHOOL OF <GOVERNMENT

• Is It a health care provider? A ‘health core provider' includes a person or organization who furnishes, bills, or is
paid for health care in the normal course of business.
• What Is health care? This term is defined broadly as care, services, or supplies related to the health of an
individual. The term Includes, but is not imtod to, preventive, diagnostic, therapeutic, rehabffitalive, maintenance,
or palliative cans, and counseling, service, assessment, or procedure with respect to the physical or mental
condtion, or functional status, of an individual or that affects the structure or function of the body. It also includes
the sale or dispensing of a drug, device, equipment, or other item in accordance with a prescription.
A county may, for example, operate a clinic in the health department that meets the definition of health care provider. A
municipality may offer emergency medical services that meet the definition. Given the expensive definition of health cere,
it ie possfole that unexpected components of the local government ere also providers. For example, a department of social
services may employ a nurse sodat worker to counsai footer children.
Remember, though, that in order for this provider to be a HIPAA-covered health cere provider, it must also transmit health
information electronically in connection with a HIPAA-covered transaction.
• What is health Information? This term is defined broody to include any information, inducing genetic
information, whether oral or recorded in any form or medum, that is created a received by a health cere
provider., end relates to the past, present, or future physical or mental health or comftion of an individual; the
provision of health care to an indvidual; or the past, present, or future payment for the provision c# health care to
an indvidual.
• What kinds of electronic transactions are implicated? Health care providers participate in a wide range of
communications end transactions electronically. The Hst of HIPAA-covered transactions is, however, limited to
certain types of communications indudng submission of heetti care claims, querying eiigfoaity for a health plan,
enroffing someone in a heafth plan, and coordinating benefits across plans. These are deserfoad in more dstafi in
45 C.F.R. Part 162.

If a local government determines that It Is a covered entity, must the entire entity comply with
HIPAA?
If a covered entity has a mix of functions - some that are required to be covered and tome that ere not-the HIPAA
regulations aDow the entity to designate itself a *hybrid entity” thereby Smiting its compfiance responsfttiities to only certain
parts of the entity. By definition, a hybrid entity is simply a single legal entity that (1) has bote covered and non-covared
components and (2) designates itself a hybrid entity by identifying covered health care components, in order to become a
hybrid, the entity - such as the city or the county - must draw invisible lines throughout its organization identifying who will
be required to comply and wfoowiti not
The prsnary benefit of becoming a hybrid entity is limiting the liability exposure in the event there is an enforcement action
related to the HIPAA privacy or security regulation. If e local government is a covered entity and it does not designate itself
as a hybrid entity, ell incfividualty identifiable health information maintained by the entity would be sitojeet to the HIPAA
regulations. For example, If the parks and recreation department collects heafth information about participants in a camp
end the local government is e covered entity but it has not designated itself a hybrid entity, that camp-related health
information would be protected by HIPAA. Imagine a camp counselor leaves forms that include heafth information in her
bag and then her beg it stolen from her car. That lose would technically be a breach under HIPAA end could trigger
breach notification requirements and inrite attention from enforcement authorities.
The primary drawbacks of becoming e hybrid ere the potentially compficated aMiMradve task of delineating which parts
of entity mb required to complywith the federal laws end then implementing those decisions. In a hybrid, afferent parts of
the local government win need to comply with different bodes of confidentiality law wfth respect to individually identifiable
health information. While this kind of variability is not uncommon in current practice, the hybrid entity designation adds a
layer of complexity to local government operations.
If a local government decides to be a hybrid entity, what must It do?
The local government must evaluate its departments, services, and functions to determine whether each one should be
covered. Once the decisions are made, there is no requirement that the covered entity file its hybrid entity designation
OnowiahieaUMtac—VAhooi of

Unway of Northnut<i i— nil.

A PPI?\mT\^ \y •_ o

Coates'Canons
NC Local Government Lav
https://canons.sog.unc.edu

ffl|UNC

JUIl I

SCHOOL OF (GOVERNMENT

papers with the federal government or any other oversight body. Rather, this is an internal exercise that prepares the
entity for meeting its compliance responsibilities.
At a minimum, the local government must treat the foBowing two categories as covered components:
1. Any component that would be a covered entity if it was a separate legal entity, and
2. Any consonant that would be considered a business associate of a component that is required to be coveted
under #1.
The first category is straightforward and should be relatively easy to evaluate and implement The second category is a
little more complex because it is ties bock to the HIPAA-created concept of business associates.’ See below for a more
detailed dtecueeion of this concept
Once the covered health care component Is defined, the covered entity must ensure that there are firewalls in place to
prevent inappropriate use and disclosure across components, information flowing from a covered component of a hybrid
entity to a non-covered component of that entity is considered a disclosure under the HIPAA privacy regulation.
In addition, staff with in the covered component must comply with all of the other requirements of the HIPAA privacy and
security regulations, including drafting detailed policies and procedures, provkfing training, estabfishing safeguards, end
dhrtributing notices of privacy practices.
Who or what Is a business associate?
In short, a business associate is a person or entity that is not a member of a covered entity’s workforce who uses
protected health information in order to help or support a covered entity. 4$ CFR 160.103. There are too types of business
associates:
1. One that creates, receives, maintains, or transmits protected health information on behalf of a covered entity for a
function or activity that is regulated by HIPAA, such as claims processing, practice management, and quality
assurance.
2. One that usee protected health information to provide certain typss of services to the covered entity. This includes
legai, ectuvite, consulting, date aggregation, management, administrative, accreditation, or financial services.
There are some exceptions to the definition of business associate, inducing one for government agendas that determine
efigibffity or enroll individuals in government health plane provicing public benefits.

What requirements apply to business associate relationships?
The HIPAA regulations require that a covered entity have ‘satisfactory assurances" that the business associate will protect
the information and comply with other administrative requirements. These assurances are typically pert of a contract
referred to as e "business associate agreement ” In addition to this contractual responsfoffity to comply wih soma of the
HIPAA requirements, business associates are now directly regulated by HIPAA and are subject to enforcement action.
Fora typical covered entity, these business associate relationships may be fairly easy to identify and manage. A health
care provider hires a billing company. The provider enters into a business associate agreement with the billing company.
For a larger hybrid entity, such as a county, the application of the business associate concept may be mote complex. The
county may have some external business associates-these would look just ike the biBng company described above, ft
may be a contract wfth an outside organization to provide some consisting services that requires disclosure of some
protected health information, for example. In this case, the county woiid enter into a business associate agreement with
the consulting group.
The county may also have some internal components that are performing business associate-like functions for one or
more heafth care consonants wfthin tha county. For example, the county’s finance office may be managing all c* the
billing fer the provision of health care by the heafth department and emergency management services. Ifthe finance office
was not included within foe county, it would be considered a business associate. Since it is within the county and the
Cwte«C2UPVtei—wtSehBeiflfGwnMMBUI fit Unww»«t North

vd

APPENDIX" K-3

Coates'Canons
NC Local Government Lew
https://canon8.8og.unc.edu

UNC

SCHOOL OF GOVERNMENT

county is a hybrid entity, the county must include the finance office as part of its covered health care component. In other
words, the county is required to include any business-associate tike functions in its health care component
It is possible to include a business associate-like function in the health care component ‘only to the extent that it performs
covered functions.” This means that, in our example above, not every staff person in the finance office would need to be
trained to comply with the HIPM regulations but only those staff members who work with protected health information for
the covered health cse component In addition, not all records in the office would be subject to all of the HIPAA
restrictions on use and disclosure. This may be helpful but it also could be tricky to implement depending upon the size of
the organization and the manber of people and activities or tactions involved. A county may simply decide that, for ease
of adrmustration, tU staff and records witNn a business associate-fte component w» be reqiired to comply with the
HIPAA regulations.

Conclusion
Even if a local government evaluated its covered entity status when the HIPAA rules were first adopted, it is important to
revisit this anetyeisfrom time to time. Not only have the HIPAA regulations changed significantly in recent years, but the
functions, services, and relationships in local government change. It is important that this analysis and the accompanying
documentation accurately reflect the local governments operations, that policies and procedures are up*to-date, and that
staff are adequately trained on the government's approach to HIPAA compliance.

Links
• www.hha.gov/ocr/privacy/Npea/administrative/combined/indexhtml
• www.cna.gov/Rsguiationa-and«Quklanca/HlPAA«AdminiatrativsSgnpfification/HIPAAGenlnfo/AreYouaCoveredEntity.htmi

irM»MogpBrt»pieimBd«epo»edflrtmtoyt»SttiooiflfGowniw<nrtemew»tmMBqriner»ttoflw<mmwl<iliore. llwbta9po«afar«*c*an*ardribrnalon*

A DDFMnTY- k-A

Tess Reyes
2805 Farview Drive Fort Collins, CO 805241 970-294-32841 teresital@bajabb.com

RECEIVED

November 7,2017
Mr. Jared Ebert
Colorado Division of Reclamation. Mining, and Safety
1313 Sherman St - Room 215
Denver, CO 80203

NOV 09 201?
DMSJON OF RECIAMATON
MIMING AND SAFETY
i

Dear Mr. Ebert:
Greetings to you. My name is Tess. I am writing your good office for the same reason that is
behind the steadily increasing number of concerned citizens in LaPorte who are in strong
opposition of yet another concrete processing facilities in our midst - Fear for Health and
Safety.
Please allow me to bring to your attention that, as we speak, the 6-square mile community
of LaPorte is rapidly being overtaken by the unbridled heavy-industrial mining and on-site
concrete processing which continue to contribute to the problem of air pollution.
Concerned citizens of LaPorte are well-informed of particulate-related health risks
associated with the presence of heavy-industry in their midst Particulate pollution
{particularly PM10 & PM 2.5) has been identified in studies conducted by the Harvard
School of Public Health, the World Health Organization (WHO) and the International
Agency on Research of Cancer (1ARC) - to be a significant cause of lung cancer and other
serious life-threatening diseases.
My spouse is disabled by a medical condition. He has been diagnosed with a heart condition
for which he is currently taking niedication(s) and regularly following up with a
cardiologist.
With almost 2 decades of extensive practice as a cardiovascular-surgical LCD. nurse with
some organ transplant experience. 1 believe that concerns for my husband's health and
safety are well- founded in addressing the threat of particulate emission from aggregate
processing facilities that threaten to close-in and inarguabiy envelope our immediate
environment from within the range of just a few feet to less than a mile at most.

APPENDIX-L'l

i

/

It is my understanding that a significant number of homes will be exposed to particulates
that will be coming from ail directions - the North, the West and South and most likely the
East as well.
My husband and l are firmly convinced that it is not only our health and safety that stand to
be impacted by the proposed pit. Our home property value and the quality of our well
water will be negatively impacted as well.
I believe that the predicament of the members of LaPorte warrants serious concern from
the local government owing to the fact that:
a. No Health Studies have been undertaken to ensure the health and safety of the
populace of a 6-square-mile community to the DIRECT and cumulative effects of
particulate emissions coming from what is to become - if not already - a high density
heavy-industrial mining and chemical processing ground.
b. No studies have been undertaken to address the economic impact on the common
people brought about by the depreciation of property values triggered by the
negative effect of health hazards associated with mining and on-site processing
literally ongoing in the backyards of homes.
Like myself and my spouse, a significant number of people in our community are in their
50's and older. Some are disabled by age or a medical condition that stand to be directly
affected by the nuisance and pollution from the proposed pit(s) and/or impacted
financially by loss of funds invested in the equity of their homes.
For retired seniors like my spouse and myself who have spent most of our lives working
towards the goal of a humble retirement and rely heavily on a fixed income to manage
mortgage payments, loss of home equity brought about by an unwarranted home value
depreciation would be devastating. In our case, the loss will undoubtedly lead to emotional
distress and a foreseeable homelessness.
1 believe that bringing the threat of the proposed mine to the attention of the Colorado
Division of Reclamation, Mining and Safety is timely and well-founded. It is an attempt to
seek urgent assistance to avert any potential harm that might come to the community from
an aggregate mining and processing facility situated dangerously close to the homes.
Along with the increasing number of concerned citizens of LaPorte, I am strongly urging for
the exercise of your authority to help arrive at a just determination that will serve common
good by restoring to the people of LaPorte the inalienable right to a healthy and safe
environment.
Thank you, Mr. Ebert.

APPENDIXL2

*>

https*y/www.law.coroell.edu/cfir/text/43/17203

43 CFR § 17.203 - Discrimination prohibited. | CFR | US Law | LH /...

1

HI > Electronic Code of Federal Regulations (e-CFR)
> Title 43 - Public Lands: Interior
> Subtitle A - Office of the Secretary of the Interior
> PART 17 - NONDISCRIMINATION IN FEDERALLY ASSISTED PROGRAMS OF THE
DEPARTMENT OF THE INTERIOR
> Subpart B - Nondiscrimination on the Basis of Handicap

> § 17.203 Discrimination prohibited.

43 CFR § 17.203 - Discrimination prohibited.
CFR

State Regulations

§ 17.203 Discrimination prohibited.
(a) General- No qualified handicapped person shall, on the basis of
handicap, be excluded from participation in, be denied the benefits of, or
otherwise be subjected to discrimination under any program or activity
which receives Federal financial assistance.
(b) Discriminatory actions prohibited.
(1) A recipient, in providing any aid, benefit, or service, may not,
directly or through contractual, licensing, or other arrangements, on
the basis of handicap:
(i) Deny a qualified handicapped person the opportunity to
participate in or benefit from the aid, benefit, or service;
(Bi) Afford a qualified handicapped person an opportunity to
participate in or benefit from the aid, benefit, or service that is not
equal to that afforded others;
1 of5

APPENDIX-L-3

8/13/2021, 11:28 PM

43 CFR § 17203 - Discrimination prohibited. | CFR | US Law | LII /...

https://wwwJaw.comeU.edu/cMext/43/17.203

(iii) Provide a qualified handicapped person with an aid, benefit, or
service that is not as effective as that provided to others;
(iv) Provide different or separate aids, benefits or services to
handicapped persons or to any class of handicapped persons unless
such action Is necessary to provide qualified handicapped persons
with aid, benefits, or services that are as effective as those provided
to others;
(v) Aid or perpetuate discrimination against a qualified handicapped
person by providing significant assistance to an agency, organization,
or person that discriminates on the basis of handicap in providing any
aid, benefit, or services to beneficiaries of the recipient's program or
activity;
(vi) Deny a qualified handicapped person the opportunity to
participate as a member of planning or advisory boards; or
(vii) Otherwise limit a qualified handicapped person in the enjoyment
of any right, privilege, advantage, or opportunity enjoyed by others
receiving an aid, benefit, or service.
(2) Aids, benefits, and services, to be equally effective, are not
required to produce the identical result of level of achievement for
handicapped and nonhandicapped persons, but must afford
handicapped persons equal opportunity to obtain the same result, to
gain the same benefit, or to reach the same level of achievement, in
the most integrated setting appropriate to the person's needs.
(3) Despite the existence of separate or different aid, benefits, or
services, a recipient may not deny a qualified handicapped person the
opportunity to participate in all aid, benefits, or services covered by this
subpart that are not separate or different.
(4) A recipient may not, directly or through contractual or other
arrangements, utilize criteria or methods of administration (i) that have
the effect of subjecting qualified handicapped persons to discrimination
on the basis of handicap, (il) that have the purpose or effect of
defeating or substantially impairing accomplishment of the objectives of
the recipient's program or activity with respect to handicapped persons,
or (iii) that perpetuate the discrimination of another recipient if both
recipients are subject to common administrative control or are agencies
of the same State.
2 of 5

APPENDIX- L-4

8/13/2021,11:28 PM

43 CFR § 17J03 - Discrimination prohibited. | CFR | US Law | LII /...

https://www.Iaw.comell.edu/cfr/text/43/17J03

(5) In determining the site or location of a facility, an applicant for
assistance or a recipient may not make selections (i) that have the
effect of excluding handicapped persons from, denying them the
benefits of, or otherwise subjecting them to discrimination under any
program or activity that receives Federal financial assistance or (ii) that
have the purpose of effect of defeating or substantially impairing the
accomplishment of the objectives of the program or activity with
respect to handicapped persons.
(6) As used in this section, the aid, benefit, or services provided under
a program or activity receiving Federal financial assistance includes any
aid, benefit, or service provided in or through a facility that has been
constructed, expanded, altered, leased or rented, or otherwise
acquired, in whole or in part, with Federal financial assistance for the
period during which the facility is used for a purpose for which the
Federal financial assistance is extended or for another purpose
involving the provision of similar services or benefits.
(7) Nothing in this section is to be construed as affecting the
acquisition of historic sites or wilderness areas.
(c) Aid, benefits, or services limited by Federal law. The exclusion
of nonhandicapped persons from aid, benefits, or services limited by
Federal statute or Executive Order to handicapped persons or the
exclusion of a specific class of handicapped persons from aid, benefits, or
services limited by Federal statute or Executive Order to a different class
of handicapped persons is not prohibited by this subpart.
(d) Recipients shall take appropriate steps to insure that communications
with their applicants, employees, and beneficiaries are available to
persons with impaired vision and hearing.
[47 FR 29546, July 7, 1982, as amended at 68 FR 51377, Aug. 26, 2003]

3 of 5

APPENDIX-

8/13/2021, 11:28 PM

TRANSCRIPT OF PROCEEDINGS

LARIMER COUNTY
PLANNING COMMISSION MEETING

Wednesday, August 15, 2018

COMMISSIONERS PRESENT:
Jeff Jensen, Chair
Gary Gerrard
Nancy Wallace
i

Curtis Miller
Anne Best - Johnson
Steve Lucas
Sean Dougherty
Bob Choate

APPENDIX-M-1

•

"a” —

126
West.

3

First: up is Jack West.

Patrick Redmond.
MS. WEST:

Jack is asking that I read his

MR. WEST:

Yes.

statement.

1

CHAIRMAN JENSEN:
6

MS. WEST:

Okay.

Jack West, my husband of forty-two

years and at least a third generation life long
a

resident of this area has asked me to speak for him.
He respectfully asks you to accept the

9

:o

signatures he, on his own accord, collected to shew

i:

that not ail residents in this area of unincorporated

j. z

Larimer County are opposed to Loveland Ready Mix

13

application to mine their property.
Let me explain what led him to do this.

14

He

: £

went into a LaPorte business earlier this year wearing

. c-

a Loveland Ready Mix cap.

17

and logos and he just happened to have that one on that

13

day.

19

was looking for.

to

and he was told he should go someplace else for his

<£ X

needs.

22

premises.

?

He has many different caps

He asked for assistance in finding the item he
The Loveland Ready Mix cap was noted

It felt a lot like bullying and he left the

He stewed over this for months before he
asked Stephanie to help him with a form he could

25

collect signatures on.

He did net ask me to help him.

V

127
He knew I didn't think it was a good idea.

I would

like for you all -to understand, he's a disabled at-risk
.3

adult.
The reason I did not think this was a good

3

idea for him is I understand he lives in a right/wrong

6

world where shades of gray elude him and quite frankly

7

1 feared for him after the experience above and also

3

how I have listened to the rhetoric of those opposed in

9

other public meetings that has been aggressive and

:o

hostile and at times, threatening.

I feared the

outcome.
.2

Come to find out, there are mere than a few

- -«

people who he has known his whole life, worked with and

14

dene business with in the LaPorte area have told him

_3

they have no objection, but they do not feel safe

_3

putting tneir names on the petition.

i"7

In closing, he collected these names in a few

13 •

short weeks, as opposed to the twenty month campaign

19

that has been.

2v

We knew this isn't a numbers game.

i i

is not a popularity contest, but he also wants you to

22

be aware that there are these in the community who do

22

support this application.

24
25

I know this is a drop in the bucket.

We ask you to approve

He knows that this

he asks you to

approve the application on its merits.

A PPFNTIIX'

-.4

Time Stamps for Events at Public Hearing
Jensen's Opening Remarks: 0.05 - 07:03:30
AT NO TIME WAS A WARNING ABOUT TIME DELEGATION HEARD.
Opening of Hearing to individual: comments 2:34:24
AT NO TIME WAS A WARNING ABOUT TIME DELEGATION HEARD.
Teresita Reyes ends / Pedro Reyes tries to cede his time to her 2:39:51
The wests started at 2:40:24 and ended at 2:42:29

i

Page 1

APPENDIX-N-l

IN THE UNTTED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 18-CV-3115-PAB-STV
PEDRO REYES.
Plaintiff,
v.
JEFF JENSEN,
GARY GERRARD, and
LARIMER COUNTY COMMUNITY PLANNING DEPARTMENT,
Defendants.
AFFIDAVIT OF ROBERT HELMICK
L Robert Helmick, being of legal age and first duly sworn, state:
1.
My name is Robert Helmick. I am a Senior Planner with the Larimer County Community
Development Department (commonly refcncd to as the Planning Department). I have been
employed with Larimer County since January 3.1995.
2.
A local company, Loveland Ready-Mix Concrete, applied to Larimer County for a permit
to mine gravel on land located near the unincorporated town of Laporte, CO, commonly referred
to as the Laporte Pit I was the planner assigned to process the application and present fee
application to the Larimer County Planning Commission.
3.
I was in attendance at both hearings cm the Laporte Pit Special Review held on August
15,2018 and August 22,2018, and presented the application ami staff materials.
4.
The Larimer County {fanning Commission is a body of nine volunteers whose task is to
review certain applications for uses and developments proposed in the unincorporated area of
Larimer County and make a recommendation to the decision maker, the Board of County
Commissioners, about whether the application should be approved, denied or approved with
con
5.
All hearings before the Planning Commission are advertised in advance in a newspaper
of local circulation. All hearings before the Planning Commission are video recorded and
broadcast on the local government television channel and internet

APPENDIX-lO -2I

6.
On several occasions prior to the August 15,2018 and August 22,2018 hearings, Teresita
Reyes communicated with me about the project. Her communication did not include any written
comments for public comment or any indication that an accommodation was being requested
7.
It is common practice for persons who need assistance or accommodating^ at iwming* tn
contact Community Development staff in advance to make arrangements for stirh
accommodations. Such accommodations have previously included pmviHing gperinj rhnir^
providing listening devices, reserving seats at the front of the room for persons with hearing or
sight impairments, and allowing persons with mobility impairments who cannot attend hearings
to submit their testimony live by telephone or through written
8.
At the August 15,2018 and August 22,2018 hearings on the Laporte Pit Special Review
application. Community Development staff hosted a table where people who wished to
a
public comment to the Planning Commission could sign in to speak.
9.
On August 15,2018 Teresita Reyes and Pedro Reyes attended the hearing on the Laporte
Pit Special Review application. Teresita Reyes and Pedro Reyes indicated they desired to make
public comment and were added to the list of speakers.
10. At the commencement of the hearing my supervisor. Principal Planner Carol Kuhn,
announced that hearing devices were available to persons who needed
11. The Planning Commission Chair, Jeff Jensen, advised the audience of the order of
presentations, and that during public comment each speaker would be given two minute to
testify, and if the matter was not concluded by 10:00 p.m. it would be continued to August 22,
2018. No members of the public were allowed to defer their time to other members of the public
at the hearings.
12. The hearing proceeded with my presentation of staff information, then the applicant
presented. A short break was taken. Following the break, the group "No Laporte Gravel Corp.”
was allowed to give a thirty-minute presentation. Then public comment began, with twominutes per speaker. Jeff Jensen advised that there were over sixty people signed up to provide
public comment, so it was unlikely the hearing would be concluded die night of August 15,2018
and therefore at 10:00 pm the hearing would stop and would be continued to August 22,2018.
13. Jeff Jensen called the first person on the list of public speakers, who was no longer
present. The next person on th^list was called and they came to die podium to speak. Teresita
Reyes was the third person on the list but was the second speaker since the first person on the list
was not present
14. Teresita Reyes testified and at die conclusion of ha allotted two-minutes, Jeff Jensen had
to remind Ms. Reyes three times that her time was up. Ms. Reyes crwirirered to try to present
additional testimony about asbestos and the Laporte Pit despite her time expiring. After the third
reminder, Teresita Reyes left the podium. Teresita Reyes* husband, Pedro Reyes, was next on
the list. Ms. Reyes did not advise the Planning Commission before leaving the podium or at any

appendix^-3

time for that matter that she needed to speak for her husband because he had a langnuy barrier
or a disability or impairment
15. Jeff Jensen then called Pedro Reyes to come to the podium to testify. Pedro Reyes
“Can I give my time to her (Teresita Reyes]?'* Due to Jeff Jensen's hearing disability, he did not
hear Pedro Reyes. Planning Commissioner Gary Gerrard was sitting next to Jeff Jensen, leaned
over and clarified that Pedro Reyes was asking to defer his time to Teresita Reyes. Pedro Reyes
again asked, “Can I give my time to her (Teresita Reyes]?** Jeff Jensen stated, “No sir. You
cannot do that You’re welcome to come and speak if you’d like.” Pedro Reyes responded, “No.
Thank you.”
16. Pedro Reyes* brief statements were in clear understandable English, which did not
suggest a language barrier.
17. Jeff Jensen then called die next person on die list Jade West to come to die podium and
speak. Jack West and his wife Ladeile West came to the podium. Because Jack West was
unable to speak for himself, Ladeile West asked if she could read her husband's written
statement into the record. Jensen accommodated this request Ladeile West read her husband's
statement during his two minutes and thereafter used her allotted two-minutes to make her own
statement Neither statement exceeded the allotted two-minutes per person.
18. At approximately 10:00 p.m. on August IS. 2018 the hearing was conrimial until Angn^
22,2018. On August 22,2018 die hearing resumed with additional public comment At the
conclusion of all public testimony on August 22,2018, Jensen invited any members of the public
who had not yet spoken, regardless of whether they had signed up or not to speak if they wished.
19. Neither Teresita Reyes nor Pedro Reyes informed the Planning Commission or
Community Development staff at or prior to either of die hearings tfw an accommodation was
needed.
20. Neither Teresita Reyes nor Pedro Reyes informed die Planning Commission or
Community Development staff at or prior to die hearings dial Pedro Reyes needed Teresita
Reyes to speak for him.
21. Larimer County has an ADA Coordinator whose job is to serve as a resource for disabled
individuals to ensure they are provided reasonable accommodations to allow them to parricipate
in County services and programs. The current ADA Coordinator is Donna Notter who began this
position February 12,2018. Contact information for Ms. Notter was available on the r
County website prior to the August 15,2018 and August 22,2018 hearings.
22. There was no observable disability by Pedro Reyes. I had no knowledge or belief that
either Teresita Reyes or Pedro Reyes was disabled in a way that prevented him from testifying.

Robert Helmu

APPENDIX ~ H

STATE OF COLORADO )
)

ss.

COUNTY OF LARIMER )
Subscribed and sworn to before me this^
Helmick.
Witness my hand and official seal.

TAMRA STILLWELL

Notary Public
Stata of Colorado
Notary ID • 20024003502
My Comminion e«ptraa 02-01-2022

day ofTXjilA fi-

'-i

2019 by Robert

StUJU,L(

Notary Public
My commission expires:

l

I
l
l

APPENDIX-^5"
f

I

